APPENDIX A

Case 5:17-cv-02915-EJD Document 105 Filed 11/07/17 Page 1 of 7

1
2
3
4
5
6
7
8
9
10

United
UnitedStates District Court
Northern District of
Northern
of California
California

11
12

UNITED STATES DISTRICT COURT

13

NORTHERN DISTRICT OF CALIFORNIA

14

SAN JOSE DIVISION

15
16

ENIGMA SOFTWARE GROUP USA LLC,

Case No. 5:17-cv-02915-EJD

Plaintiff,
17

DEFENDANT’S
ORDER GRANTING DEFENDANT'S
MOTION TO DISMISS

v.
18
19

MALWAREBYTES INC.,

Re: Dkt. No. 97

Defendant.
20
21
22

Plaintiff
Software Group
Plaintiff Enigma
Enigma Software
Group USA
USA LLC
(“Enigma”) brings claims against Defendant
LLC ("Enigma")

23

that Malwarebytes
Malwarebytes unlawfully
unlawfully characterized
characterized Enigma’s
Malwarebytes Inc. based on its allegation that
Enigma's

24

software as
as harmful to
to users'
users’ computers.
computers. Malwarebytes
Malwarebytes now
now moves
moves to
to dismiss
dismiss under Fed. R. Civ.
software

25

P. 12(b)(6). Malwarebytes's
Malwarebytes’s motion
motion will be granted.

26
27
28

Case No.: 5:17-cv-02915-EJD
ORDER GRANTING DEFENDANT'S
DEFENDANT’S MOTION TO DISMISS
DISMISS
1

Case 5:17-cv-02915-EJD Document 105 Filed 11/07/17 Page 2 of 7

1

I.

2

Malwarebytes develops software that protects internet users from malware, adware, and

3

(“FAC”) I
¶¶ 3,36,
3, 36, Dkt. No. 33.
other unwanted computer programs. First Am. Compl. ("FAC")

4

Malwarebytes’s software scans users'
users’ computers for "potentially
“potentially unwanted programs,"
programs,” which it
Malwarebytes's

5

automatically flags and quarantines. Id. ¶ 5. When the software detects an unwanted program, it

6

displays a notification and asks the user if she wants to remove the program from her computer.

7

Id.

8

United
UnitedStates District Court
Northern District of
Northern
of California
California

BACKGROUND

Enigma also provides anti-malware software to internet users. Id. ¶
¶ 4. Enigma alleges that,

9

in 2016, Malwarebytes revised the criteria it uses to identify unwanted programs. Id. ¶ 7. Under

10

Malwarebytes’s software identifies Enigma’s
the new criteria, Malwarebytes's
Enigma's software as a potential threat. Id.

11

Enigma alleges that Malwarebytes's
Malwarebytes’s classification of Enigma’s
Enigma's software is wrong because

12

Enigma's programs "are
Enigma’s
“are legitimate and pose no security threat to users'
users’ computers.”
computers." Id. ¶ 9.

13

Enigma alleges that Malwarebytes revised its criteria to interfere with Enigma’s
Enigma's customer base

14

and to retaliate against Enigma for a separate lawsuit Enigma filed against a Malwarebytes

15

affiliate. Id. 'Irif
¶¶ 8,
19–20.
8,19-20.

16

On that basis, Enigma brings claims for (1) false advertising in violation of § 43(a) of the

17

Lanham Act (FAC 'Irlf
¶¶ 134-43),
134–43), (2) violations of New York General Business Law § 3491
3491 (FAC 'Irlf
¶¶

18

144–50), (3) tortious interference with contractual relations (FAC 'Irlf
¶¶ 151-160),
151–160), and (4) tortious
144-50),

19

¶¶ 161-68).
161–68).
interference with business relations (FAC 'Irlf
Def.’s
Malwarebytes now moves to dismiss under Fed. R. Civ. P. 12(b)(6). Def.
's Mot. to

20
21

Dismiss ("MTD"),
(“MTD”), Dkt. No. 97.

22

II.
II.

23

LEGAL STANDARD

A motion to dismiss under Fed. R. Civ. P. 12(b)(6) tests the legal sufficiency of claims

24

1480, 1484 (9th Cir.
alleged in the complaint. Parks Sch. of Bus., Inc. v. Symington, 51 F.3d 1480,1484

25

1995). Dismissal "is
“is proper only where there is no cognizable legal theory or an absence of

26
1

27

1 This

12, 2017. Dkt. No. 67.
case was transferred from the Southern District of New York on May 12,2017.

28

Case No.: 5:17-cv-02915-EJD
ORDER GRANTING DEFENDANT'S
DEFENDANT’S MOTION TO DISMISS
2

Case 5:17-cv-02915-EJD Document 105 Filed 11/07/17 Page 3 of 7

11

sufficient facts
alleged to
to support
support aa cognizable
cognizable legal
legal theory."
theory.” Navarro v. Block, 250 F.3d 729, 732
sufficient
facts alleged

2

(9th
The complaint
(9th Cir.
Cir. 2001).
2001). The
“must contain
sufficient factual
factual matter,
matter, accepted
accepted as
as true,
true, to
to ‘state
complaint "must
contain sufficient
'state aa

3

claim
is plausible
its face.’
face.' "
claim to
to relief
relief that
that is
plausible on
on its
” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting

4

Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).

5

III.
III.

6
7

8
9
10

United
UnitedStates District Court
Northern District of
Northern
of California
California

11
12
13
14

DISCUSSION

that all
all of
of Enigma’s
claims are
are barred
barred by
by the
the immunity
immunity provisions
provisions of
of
Malwarebytes argues that
Enigma's claims
§ 230(c)(2) of the Communications Decency Act. Mot. 7. That section provides:
No provider or user of an interactive computer service shall be held
liable on account of—
(A) any action voluntarily taken in good faith to restrict
access to or availability of material that the provider or user
considers to be obscene, lewd, lascivious, filthy, excessively
violent, harassing, or otherwise objectionable, whether or not
such material is constitutionally protected; or
(B) any action taken to enable or make available to
information content providers or others the technical means
to restrict access to material described in paragraph (1).

15

“to encourage
encourage the
the development
development of
of
47 U.S.C. § 230(c)(2). Congress enacted these provisions "to

16

technologies which maximize user control over what information is received by individuals,

17

families, and
and schools
schools who
who use
use the
the Internet,”
and to
to encourage
encourage "development
“development and
and utilization
utilization of
of
families,
Internet," and

18

blocking
blocking and
and filtering
filtering technologies."
technologies.” Id. § 230(b)(3), (4).

19

opinion
Malwarebytes argues
argues that
that this
this case
case is
is "indistinguishable"
“indistinguishable” from
from the
the Ninth
Ninth Circuit's
Circuit’s opinion
Malwarebytes

20

in Zango interpreting § 230(c)(2). Mot. 8; Zango, Inc. v. Kaspersky, 568 F.3d 1169 (9th Cir.

21

Kaspersky’s anti-malware
anti-malware software incorrectly classified
2009). In that case, Zango alleged that Kaspersky's

22

Zango’s software
software as
as harmful.
harmful. Zango, 568 F.3d at 1170-71.
1170–71. The Ninth Circuit considered whether
Zango's

23

“companies that
that provide
provide filtering
filtering tools,"
tools,” such
such as
as Kaspersky,
Kaspersky, are eligible for immunity under §
"companies

24

230(c). Id. at 1173. The panel first explained that providers of blocking software are eligible for §

25

230(c)(2) immunity as long as they meet the statutory requirements. Id. at 1173-75.
1173–75. Next, it found

26

that Kaspersky
Kaspersky was
was an
an "interactive
“interactive computer
computer service"
service” within
within the
the meaning
meaning of
of the statute. Id. at
that

27
28

Case No.: 5:17-cv-02915-EJD
ORDER GRANTING DEFENDANT'S
DEFENDANT’S MOTION TO DISMISS
DISMISS
3

Case 5:17-cv-02915-EJD Document 105 Filed 11/07/17 Page 4 of 7

11

1175–76.
also found
that Kaspersky
Kaspersky "has
“has ‘made
available’ for
for its
users the
the technical
technical means
means to
to
1175-76. It
It also
found that
'made available'
its users

2

restrict items
items that
that Kaspersky
Kaspersky has
has defined
defined as
as malware."
malware.” Id. at 1176. The panel found that Kaspersky
restrict

3

qualified for immunity under § 230(c)(2)(B) "so
“so long
as the
the blocked
blocked items
are objectionable
objectionable
long as
items are

4

230(c)(2)(A).” Id. It concluded that Kaspersky properly classified malware as
material under § 230(c)(2)(A)."

5

“objectionable” material,
material, and
and as
as such,
such, it
it found
found that
that Kaspersky
Kaspersky satisfied
satisfied the
the requirements
requirements for
for
"objectionable"

6

immunity under § 230(c)(2)(B). Id. at 1177-78
1177–78 (holding
(holding that
that any
any "provider
“provider of access tools that

7

filter, screen, allow, or disallow content that the provider or user considers obscene, lewd,

8

lascivious, filthy, excessively violent, harassing, or otherwise objectionable is protected from

9

liability by 47 U.S.C. § 230(c)(2)(B) for any action taken to make available to others the technical

United
UnitedStates District Court
Northern District of
Northern
of California
California

10

means to
to restrict
access to
to that
that material").
material”).
means
restrict access

11

Enigma argues that Zango is distinguishable in two respects. First, Enigma argues that

12

malware, as
as defined
defined by
by Malwarebytes's
Malwarebytes’s criteria,
criteria, is
is not
not one
one of
of the
the types
types of
of materials
materials to
to which
which §
§
malware,

13

230(c)(2) immunity applies.
's Mot.
applies. Pl.'s
Pl.’s Opp'n
Opp’n to
to Def.
Def.’s
Mot. to
to Dismiss
Dismiss ("Opp'n")
(“Opp’n”) 11-12,14,
11–12, 14, Dkt. No.

14

100. By
By its
terms, §
§ 230(c)(2)(A)
230(c)(2)(A) applies
applies to
to material
material that
that is
is "obscene,
“obscene, lewd, lascivious, filthy,
100.
its terms,

15

objectionable.” §
§ 230(c)(2)(B)
230(c)(2)(B) applies
applies to the same
excessively violent, harassing, or otherwise objectionable."

16

material.2
material.2 Enigma
Enigma argues
argues that
that malware
malware is
is not
not within
within the
the scope
scope of
of "objectionable"
“objectionable” material
material because
because

17

it is
“not remotely
remotely related
related to
to the
the content
content categories
categories enumerated"
enumerated” in
subsection (A)
(A) (i.e.,
(i.e., materials
materials
it
is "not
in subsection

18

that are
are "obscene,
“obscene, lewd,
lascivious,” and
and so on). Opp'n
Opp’n 10.
10. Enigma
further argues
argues that
that Zango did
that
lewd, lascivious,"
Enigma further

19

provider has
has discretion
to decide
decide what
what is
is "objectionable,"
“objectionable,”
not address whether an anti-malware provider
discretion to

20

because, as the Ninth Circuit noted, Zango waived that argument by failing to raise it in its

21
21

opening appellate brief. Id.; Zango, 568 F.3d at 1175-76.
1175–76.
However, while it is true that the Zango panel found that Zango waived this argument,

22
23

Enigma overlooks Zango's
Zango’s clear
clear holding
holding that
that §
§ 230(c)(2)(B)
230(c)(2)(B) immunity
applies to
to "a
“a provider
provider of
of
immunity applies

24

computer services that makes available software that filters or screens material that the user or the

25
26
27
28

2

Subsection (B)
(B) refers
refers to
to "material
“material described in paragraph (1).”
is aa typo
typo in
the statute;
statute; it
it
Subsection
(1)." This
This is
in the
should read:
read: "material
“material described
described in
in paragraph
paragraph (A)."
(A).” See Zango, 568
F.3d at
at 1173
1173 n.5
n.5 ("
(“ ‘paragraph
should
568 F.3d
'paragraph
'paragraph (A)'
(1)’ is
is aa scrivener's
scrivener’s error
(A)’ ").
”).
(1)'
error referring to ‘paragraph

Case No.: 5:17-cv-02915-EJD
ORDER GRANTING DEFENDANT'S
DEFENDANT’S MOTION TO DISMISS
DISMISS
4

United
UnitedStates District Court
Northern District of
Northern
of California
California

Case 5:17-cv-02915-EJD Document 105 Filed 11/07/17 Page 5 of 7

1

objectionable.” Zango, 568 F.3d at 1173 (emphasis in original); see also id. at
provider deems
deems objectionable."

2

1177
1177 (holding
(holding that
that immunity
applies to
to material
material "that
“that the provider or user considers . . .
immunity applies

3

objectionable”) (emphasis
(emphasis added);
added); id. (immunity
(immunity applies
applies to
to "material
“material that
that either
either the
the user
user or the
objectionable")

4

provider deems
objectionable”) (emphasis
(emphasis in
in original).
original). This interpretation of Zango aligns with the
provider
deems objectionable")

5

likewise states
states that
that immunity
applies to
to "material
“material that the
plain language of the statute, which likewise
immunity applies

6

objectionable.” 47
47 U.S.C.
U.S.C. § 230(c)(2)(A) (emphasis added). In
provider or user considers to be . . . objectionable."

7

Zango, the provider of the anti-malware software, Kaspersky, exercised its discretion to select the

8

criteria it would use to identify objectionable computer programs. The Ninth Circuit held that

9

was properly
properly within
within the
the scope
scope of
of "objectionable"
“objectionable” material.
material. In
malware, as Kaspersky defined it, was

10

that respect, the Court agrees with Malwarebytes that Zango is factually indistinguishable from the

11

scenario here.

12

Second, Enigma argues that Malwarebytes is entitled to § 230(c)(2)(B) immunity only if it

13

acted in
“good faith.”
Opp’n 11-14.
11–14. Subsection
(A) protects
protects "any
“any action voluntarily taken in good
acted
in "good
faith." Opp'n
Subsection (A)

14

faith” to
to restrict access to objectionable material (emphasis added). Subsection (B) does not
faith"

15

good faith
is "an
“an implied
contain a good-faith requirement. Nonetheless, Enigma argues that good
faith is
implied

16

requirement in subsection (B) that is part and parcel of the proper, plain meaning of the statute

17

when read
as aa whole."
whole.” Opp'n
Opp’n 14.
14. The Zango court did not decide whether subsection (B) contains
when
read as

18

a good-faith requirement, since Zango waived that argument on appeal and the panel did not need

19

to resolve it to reach its decision. Zango, 568 F.3d at 1177. However, as the panel recognized,

20

subsection (B)
“has no
no good
good faith
subsection
(B) "has
faith language.”
language." Id. Here, the Court must assume that Congress acted

21

intentionally when it decided to include a good-faith requirement in subsection (A) but not in (B).

22

interpreting aa statute
See, e.g., Conn.
Conn. Nat'l
Nat’l Bank
Bank v.
v. Germain,
Germain, 503 U.S. 249, 253-54
253–54 (1992)
(1992) ("[I]n
(“[I]n interpreting
statute

23

a court should always turn first to one, cardinal canon before all others. We have stated time and

24

again that courts must presume that a legislature says in a statute what it means and means in a

25

statute what
what it
it says
says there.");
there.”); Bailey v. United States, 516 U.S. 137, 146 (1995) ("The
(“The difference
statute

26

between the two provisions demonstrates that, had Congress meant to broaden application of the

27
28

Case No.: 5:17-cv-02915-EJD
ORDER GRANTING DEFENDANT'S
DEFENDANT’S MOTION TO DISMISS
DISMISS
5

Case 5:17-cv-02915-EJD Document 105 Filed 11/07/17 Page 6 of 7

11

specified.”). This reading is bolstered by the fact
statute . . . , Congress could and would have so specified.").

2

that subsection (B) includes an explicit reference to subsection (A) with respect to the types of

3

material to which immunity applies. Congress could have included a similar reference in subection

4

to subsection
subsection (A)'s
(A)’s good-faith
good-faith requirement, but it chose not to. As such, the Court agrees with
(B) to

5

Malwarebytes that it need not consider whether Malwarebytes acted in good faith for the purposes

6

Def.’s Reply
Reply in
in
of deciding whether Malwarebytes is entitled to immunity under § 230(c)(2)(B). Def.'s

7

Support
of Mot.
Mot. to
to Dismiss
Dismiss ("Reply")
(“Reply”) 5-7,
5–7, Dkt. No. 102.
Support of
Enigma argues Malwarebytes is nonetheless ineligible for immunity with respect to

8

United
UnitedStates District Court
Northern District of
Northern
of California
California

9

Enigma's Lanham
Lanham Act
Enigma’s
Act claim
claim (FAC
(FAC I
¶¶ 134-143)
134–143) because § 230 provides that "nothing
“nothing in
in [§
[§ 230]
230]

10

shall be
be construed
to limit
limit or
or expand
expand any
any law
pertaining to
to intellectual
intellectual property."
property.” 47
47 U.S.C.
U.S.C. §
§
shall
construed to
law pertaining

11

230(e)(2);
230(e)(2); Opp'n
Opp’n 15.3
15.3 Enigma's
Enigma’s argument
argument fails
because its
its complaint
complaint does
does not
allege an
an
fails because
not allege

12

intellectual property claim. The Lanham Act contains two parts: one governing trademark

13

infringement (15 U.S.C. § 1114) and one governing unfair competition (15 U.S.C. § 1125(a)). The

14

unfair competition
provision, in
in turn,
turn, "creates
“creates two
two distinct
distinct bases
bases of
of liability”:
one governing
false
unfair
competition provision,
liability": one
governing false

15

association (15 U.S.C. § 1125(a)(1)(A)) and one governing false advertising (15 U.S.C. §

16

1125(a)(1)(B)). Lexmark
Lexmark Intl,
Inc. v.
Int’l, Inc.
v. Static
Control Components,
Components, Inc.,
Static Control
Inc., 134 S. Ct. 1377, 1384

17

complaint asserts
asserts aa false
advertising claim
claim under
under §
§ 1125(a)(1)(B).
1125(a)(1)(B). FAC
FAC ¶
¶ 135.
135.
(2014). Enigma’s
Enigma's complaint
false advertising

18

Enigma does not assert claims under the trademark provisions of the Lanham Act. The complaint

19

does not allege that Enigma owns trademarks or any other form of intellectual property, nor does it

20

allege that Malwarebytes has committed any form of intellectual property infringement, including

21

Accordingly, the
the Court
Court finds
finds that
that Enigma's
Enigma’s false
advertising claim
claim under
under
misuse of its trademarks. Accordingly,
false advertising

22

“law pertaining
pertaining to
to intellectual
the Lanham Act, 15 U.S.C. § 1125(a)(1)(B), does not arise under aa "law
intellectual

23

property” under
under 47
47 U.S.C.
U.S.C. § 230(e)(2). See Perfect 10, Inc. v. CCBill, LLC, 340 F. Supp. 2d 1077,
property"

24

1109–10 (C.D. Cal. 2004) ("Since
(“Since false
advertising .. .. .. does
does not
not pertain
pertain to
to intellectual
intellectual property
property
1109-10
false advertising

25
26
27
28

3

Enigma does not dispute that immunity would apply to its other three claims for business torts.
Opp’n 15;
15; see also Zango, 568
F.3d at
at 1177
1177 ("we
(“we have
have interpreted
§ 230
230 immunity
to cover
cover
Opp'n
568 F.3d
interpreted §
immunity to
torts”).
business torts").
Case No.: 5:17-cv-02915-EJD
ORDER GRANTING DEFENDANT'S
DEFENDANT’S MOTION TO DISMISS
DISMISS
6

Case 5:17-cv-02915-EJD Document 105 Filed 11/07/17 Page 7 of 7

1

false
plaintiff’s] false
rights, the Court finds that the immunity provided under the CDA for [the plaintiff's]

2

advertising claim
claim is
is not
not excluded
excluded under
under §
§ 230(e)(2).").
230(e)(2).”).
advertising

3

IV.

CONCLUSION

4

Because Malwarebytes is entitled to immunity under 47 U.S.C. § 230(c)(2)(B) with respect

5

to all
all of
of Enigma’s
claims, Malwarebytes's
Malwarebytes’s motion
motion to
to dismiss
dismiss is
is GRANTED.
GRANTED. The
Clerk shall
shall close
close
to
Enigma's claims,
The Clerk

6

this file.

7
8
9
10

United
UnitedStates District Court
Northern District of
Northern
of California
California

11

IT IS SO ORDERED.
Dated: November 7, 2017
______________________________________
EDWARD J. DAVILA
United States District Judge

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Case No.: 5:17-cv-02915-EJD
ORDER GRANTING DEFENDANT'S
DEFENDANT’S MOTION TO DISMISS
DISMISS
7

APPENDIX B

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 1 of 26

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE G
ROUP USA,
GROUP
LLC,
Plaintiff-Appellant,
Plaintiff:Appellant,

No. 17-17351

v.

D.C. No.
5:17-cv-02915EJD

MALWAREBYTES, IINC.,
NC.,
MALWAREBYTES,
Defendant-Appellee.

OPINION

Appeal from the United States District Court
for the Northern District of California
Edward J. Davila, District Judge, Presiding
Argued and Submitted February 15, 2019
San Francisco, California
Filed September 12, 2019
Before: Mary M. Schroeder and Johnnie B. Rawlinson,
Circuit Judges, and Robert S. Lasnik,
Lasnik,** District Judge.
Opinion by Judge Schroeder;
Dissent by Judge Rawlinson

** The Honorable Robert S. Lasnik, United States District Judge for the
Western District of Washington, sitting by designation.

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 2 of 26

2

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
**
SUMMARY**
SUMMARY

Communications Decency Act
The panel reversed the district court's
court’s dismissal, as barred
by § 230 of the Communications Decency Act, of claims
Act’s false advertising
under New York law and the Lanham Act's
provision.
Enigma Software Group USA, LLC, and Malwarebytes,
Inc., were providers of software that helped interne
internet users to
filter unwanted content from their computers. Enigma
alleged that Malwarebytes configured its software to block
users from accessing Enigma’s
Enigma's software in order to divert
Enigma's customers.
Enigma’s
Section 230 immunizes software providers from liability
for actions taken to help users block certain types of
unwanted online material, including material that is of a
“otherwise objectionable."
objectionable.”
violent or sexual nature or is "otherwise
Distinguishing Zango, Inc. v. Kaspersky Lab, Inc., 568 F.3d
1169 (9th Cir. 2009), the panel held that the phrase
“otherwise objectionable"
objectionable” does not include software that the
"otherwise
provider finds objectionable for anticompetitive reasons. As
Enigma's
to the state-law claims, the panel held that Enigma’s
allegations of anticompetitive animus were sufficient to
withstand dismissal. As to the federal claim, the panel further
230’s exception for intellectual property claims
held that § 230's
did not apply because this false advertising claim did not

**** This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 3 of 26

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

3

relate to trademarks or any other type of intellectual property.
The panel remanded the case for further proceedings.
Dissenting, Judge Rawlinson wrote that § 230 is broadly
worded, and Enigma did not persuasively make a case for
limitation of the statute beyond its provisions.

COUNSEL
Terry Budd (argued), Budd Law PLLC, Wexford,
Pennsylvania; Christopher M. Verdini and Anna Shabalov,
K&L Gates LLP, Pittsburgh, Pennsylvania; Edward P.
Sangster, K&L Gates LLP, San Francisco, California; for
Plaintiff-Appellant.
Tyler G. Newby (argued), Guinevere L. Jobson,
Jobson, and Sapna
Mehta, Fenwick & West LLP, San Francisco, California, for
Defendant-Appellee.

OPINION
SCHROEDER, Circuit Judge:
OVERVIEW
This dispute concerns § 230, the so-called "Good
“Good
Samaritan" provision of the Communications Decency Act of
Samaritan”
1996, enacted primarily to protect minors from harmful
online viewing. The provision immunizes computer-software
providers from liability for actions taken to help users block
certain types of unwanted, online material. The provision
expressly describes material of a violent or sexual nature, but

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 4 of 26

4

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

“otherwise
also includes a catchall for material that is "otherwise
objectionable.” 47 U.S.C. § 230(c)(2). We have previously
objectionable."
recognized that the provision establishes a subjective standard
whereby internet users and software providers decide what
online material is objectionable. See Zango Inc. v. Kaspersky
Lab, Inc., 568 F.3d 1169, 1173 (9th Cir. 2009).
The parties to this dispute are both providers of software
that help internet users filter unwanted content from their
computers. Plaintiff-Appellant Enigma Software Group
USA, LLC has alleged violations of New York state law and
Act’s false advertising provision.
a violation of the Lanham Act's
Each claim is based on the allegation that defendant,
Malwarebytes Inc., has configured its software to block users
from accessing Enigma’s
Enigma's software in order to divert Enigma’s
Enigma's
customers. The district court, relying on Zango, dismissed
230’s broad recognition of
the action as barred by § 230's
immunity
immunity. We did not hold in Zango, however, that the
immunity was limitless.
This case differs from Zango in that here the parties are
competitors. In this appeal Enigma contends that the
“otherwise objectionable"
objectionable” catchall is not broad enough to
"otherwise
provider’s objection to a rival’s
encompass a provider's
rival's software in
order to suppress competition. Enigma points to Judge
Fisher’s concurrence in Zango warning against an overly
Fisher's
expansive interpretation of the provision that could lead to
anticompetitive results. We heed that warning and reverse
court’s decision that read Zango to require such an
the district court's
“otherwise
interpretation.
We hold that the phrase "otherwise
objectionable”
does
not
include
software
that
the
provider
objectionable"
finds objectionable for anticompetitive reasons.

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 5 of 26

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

5

Malwarebytes contends that it had legitimate reasons for
finding Enigma’s
Enigma's software objectionable apart from any
anticompetitive effect, and that immunity should therefore
apply on Enigma’s
Enigma's state-law claims, even if the district court
erred in its interpretation of Zango. We conclude, however,
that Enigma’s
Enigma's allegations of anticompetitive animus are
sufficient to withstand dismissal.
Enigma's federal claim warrants an additional analytical
Enigma’s
CDA’s immunity provision contains an exception
step. The CDA's
for intellectual property claims, stating that "[n]othing
“[n]othing in this
section shall be construed to limit or expand any law
property.” 47 U.S.C. § 230(e)(2).
pertaining to intellectual property."
Enigma has brought a false advertising claim under the
Lanham Act, a federal statute that deals with trademarks.
Enigma contends that the false advertising claim is one
“pertaining to intellectual property"
property” and thus outside the
"pertaining
scope of § 230 immunity.
Although it is true that the Lanham Act itself deals with
intellectual property, i.e. trademarks, Enigma’s
Enigma's false
advertising claim does not relate to trademarks or any other
type of intellectual property. The district court therefore
correctly held that the intellectual property exception to
immunity does not apply to the false advertising claim. The
district court went on to hold that under Zango’s
Zango's application
of § 230 immunity, Malwarebytes was immune from liability
for false advertising. As with Enigma’s
Enigma's state law claims, we
hold that the district court read Zango too broadly in
dismissing the federal claim. We therefore reverse the
judgment on this claim as well.

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 6 of 26

6

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

STATUTORY BACKGROUND
This appeal centers on the immunity provision contained
in § 230(c)(2) of the Communications Decency Act (“CDA”),
("CDA"),
47 U.S.C. § 230(c)(1996). The CDA, which was enacted as
part of the Telecommunications Act of 1996, contains this
“Good Samaritan”
"Good
Samaritan" provision that, in subparagraph B,
immunizes internet-service providers from liability for giving
internet
interne users the technical means to restrict access to the
types of material described in the subparagraph A. Id.
§ 230(c)(2)(B).
The material, as described in that
“material that the provider or user considers
subparagraph, is "material
to be obscene, lewd, lascivious, filthy, excessively violent,
objectionable.” Id. § 230(c)(2)(A).1
230(c)(2)(A).1
harassing, or otherwise objectionable."

“Protection for ‘Good
Samaritan’ blocking
'1 Section 230(c) is entitled "Protection
'Good Samaritan'
material.” The relevant subsection (2), "Civil
“Civil
and screening of offensive material."
liability," states, in full, as follows:
liability,”
“No provider or user of an interactive computer service
"No
shall be held liable on account of —–
(A) any action voluntarily taken in good faith to restrict
(A)
access to or availability of material that the provider or
user considers to be obscene, lewd, lascivious, filthy,
excessively violent, harassing, or otherwise
objectionable, whether or not such material is
constitutionally protected; or
(B) any action taken to enable or make available to
(B)
information content providers or others the technical
means to restrict access to material described in
[A].”
paragraph [A]."

47 U.S.C. § 230(c)(2)(A), (B).

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 7 of 26

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

7

This grant of immunity dates back to the early days of the
internet when concerns first arose about children being able
interne
to access online pornography. Parents could not program
their computers to block online pornography, and this was at
least partially due to a combination of trial court decisions in
New York that had deterred the creation of online-filtration
efforts. In the first case, Cubby, Inc. v. CompuServe, Inc., a
federal court held that passive providers of online services
and content were not charged with knowledge of, or
responsibility for, the content on their network. See 776 F.
Supp 135, 139-43
139–43 (S.D.N.Y. 1991). Therefore, if a provider
remained passive and uninvolved in filtering third-party
material from its network, the provider could not be held
liable for any offensive content it carried from third parties.
See id.
The corollary of this rule, as later articulated by a New
York state trial court, was that once a service provider
undertook to filter offensive content from its network, it
assumed responsibility for any offensive content it failed to
filter, even if it lacked knowledge of the content. See Stratton
Oakmont, Inc. v. Prodigy Services Co., 1995 WL 323710, *5
(“Prodigy’s conscious choice,
(N.Y. Sup. Ct. May 24, 1995) ("Prodigy's
to gain the benefits of editorial control, has opened it up to a
greater liability than CompuServe and other computer
networks that make no such choice.”),
choice."), superseded by statute,
Communications Decency Act, Pub. L. No. 104-104, 110
Stat. 137, as recognized in Shiamili v. Real Estate Group of
N.Y., Inc., 952 N.E.2d 1011 (2011). Representative Chris
Cox warned during debates on proposed legislation aimed at
overruling Stratton Oakmont, that premising liability on
providers’ efforts to filter out offensive material was
providers'
deterring software companies from providing the filtering
software and tools that could help parents block pornography

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 8 of 26

8

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

and other offensive material from their home computers. See
141 Cong. Rec. 22,045 (1995) (statement of Rep. Cox).
The Stratton Oakmont decision, along with the increasing
public concern about pornography on the internet, served as
catalysts for legislators to consider greater internet regulation.
Congress considered, in early 1995, two different
amendments to the Telecommunications Act. The first,
called the Exon-Coats amendment, targeted pornography at
the source by prohibiting its dissemination. See id. at 16,068.
Proponents of this bill argued that parents lacked the
technological sophistication needed to implement onlinefiltration tools and that the government therefore needed to
step in. Id. at 16,099. The second proposal, entitled the
Online Family Empowerment Act ("OFEA"),
(“OFEA”), targeted
internet pornography at the receiving end by encouraging
further development of filtration tools. Id. at 22,044.
Proponents of this bill pointed out that prohibiting
pornography at the source raised constitutional issues
involving prior restraint, and argued that parents, not
government bureaucrats, were better positioned to protect
their children from offensive online material. Id. at 16,013.
On February 1, 1996, Congress enacted both approaches
as part of the CDA. The Exon-Coats amendment was
U.S.C.
codified at 47 U.
S.C. § 223, but was later invalidated by Reno
877–79 (1997). Before us is OFEA'
OFEA’ss
v. ACLU, 521 U.S. 844, 877-79
approach, enacted as § 230(c)(2) of the CDA. See Pub L. No.
104-104, § 509, 110 Stat. 56, 137–39.
137-39. By immunizing
internet-service providers from liability for any action taken
to block, or help users block offensive and objectionable
online content, Congress overruled Stratton Oakmont and
thereby encouraged the development of more sophisticated

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 9 of 26

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

9

methods of online filtration. See H.R. Conf. Rep. No. 104879, at 194 (1996).
The history of § 230(c)(2) shows that access to
Congress’s motivating concern, but the
pornography was Congress's
language used in § 230 included much more, covering any
“excessively violent,
online material considered to be "excessively
harassing, or otherwise objectionable.”
objectionable." See 47 U.S.C.
§ 230(c)(2)(A)—(B).
230(c)(2)(A)–(B). Perhaps to guide the interpretation of
this broad language, Congress took the rather unusual step of
setting forth policy goals in the immediately preceding
paragraph of the statute. See id. § 230(b). Of the five goals,
“to
three are particularly relevant here. These goals were "to
encourage the development of technologies which maximize
control”; "to
“to empower parents to restrict their children's
children’s
user control";
content”; and
access to objectionable or inappropriate online content";
“to preserve the vibrant and competitive free market that
"to
presently exists for the Internet and other interactive
services.” See id. § 230(b)(2)—(4).
230(b)(2)–(4).
computer services."
This court has decided one prior case where we
considered the scope of § 230, but were principally concerned
with which types of online-service providers Congress
intended to immunize. See Zango, 568 F.3d at 1175. We
acknowledged that providers of computer security software
can benefit from § 230 immunity, and that such providers
have discretion to identify what online content is considered
“objectionable,” id., but we had no reason to discuss the
"objectionable,"
scope of that discretion. The separate concurrence in Zango
focused on the future need for considering appropriate
limitations on provider control. See id. at 1178-80
1178–80 (Fisher,
J. concurring). District courts have differed in their

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 10 of 26

10

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

interpretations of Zango and the extent to which it
encouraged providers to block material. What is clear to us
from the statutory language, history and case law is that the
criteria for blocking online material must be based on the
characteristics of the online material, i.e. its content, and not
on the identity of the entity that produced it.
FACTUAL BACKGROUND
Plaintiff-appellant Enigma Software Group USA, LLC, is
a Florida company that sells computer security software
nationwide. Malwarebytes Inc., a Delaware corporation
headquartered in California, also sells computer security
software nationwide. Malwarebytes and Enigma are
therefore direct competitors.
Providers of computer security software help users
identify and block malicious or threatening software, termed
malware, from their computers. Each provider generates its
own criteria to determine what software might threaten users.
Defendant Malwarebytes programs its software to search for
what it calls Potentially Unwanted Programs ("PUPs").
(“PUPs”). PUPs
include, for example, what Malwarebytes describes as
“obtrusive, misleading, or deceptive
software that contains "obtrusive,
practices.” Once
advertisements, branding or search practices."
Malwarebytes’s security software is purchased and installed
Malwarebytes's
user’s computer, it scans for PUPs, and according to
on a user's
Enigma's complaint, if the user tries to download a program
Enigma’s
that Malwarebytes has determined to be a PUP, a pop-up alert
warns the user of a security risk and advises the user to stop
the download and block the potentially threatening content.

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 11 of 26

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

11

Malwarebytes and Enigma have been direct competitors
Malwarebytes’s inception. In their
since 2008, the year of Malwarebytes's
first eight years as competitors, neither Enigma nor
Malwarebytes flagged the other’s
other's software as threatening or
unwanted. In late 2016, however, Malwarebytes revised its
PUP-detection criteria to include any program that, according
to Malwarebytes, users did not seem to like.
Malwarebytes’s software immediately
After the revision, Malwarebytes's
began flagging Enigma’s
Enigma's most popular programs—
RegHunter and SpyHunter—as PUPs. Thereafter, anytime a
Malwarebytes’s software tried to download those
user with Malwarebytes's
Enigma programs, the user was alerted of a security risk and,
according to Enigma’s
Enigma's complaint, the download was
“quarantined” the programs.
prohibited, i.e. Malwarebytes "quarantined"
Enigma alleges that Malwarebytes's
Malwarebytes’s new definition of a PUP
includes subjective criteria that Malwarebytes has
"implemented
“implemented at its own malicious whim"
whim” in order to identify
Enigma's programs as threats. Enigma characterizes the
Enigma’s
“guise” for anticompetitive conduct, and alleges
revision as a "guise"
“legitimate”, "highly
“highly regarded”,
that its programs are "legitimate",
regarded", and
“pose
no
security
threat.”
As
a
result
of
Malwarebytes’s
"pose
threat."
Malwarebytes's
actions, Enigma claims that it has lost customers and revenue
and experienced harm to its reputation.
Enigma brought this action against Malwarebytes in early
2017, in the Southern District of New York. Enigma claimed
that Malwarebytes has used its PUP-modification process to
competition" aimed
“bad faith campaign of unfair competition”
advance a "bad
“deceiving consumers and interfering with [Enigma's]
[Enigma’s]
at "deceiving
relationships."
customer relationships.”

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 12 of 26

12

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

Enigma's complaint alleged four claims, three under New
Enigma’s
York state law and one under federal law. The first state-law
claim accused Malwarebytes of using deceptive business
practices in violation of New York General Business Law
§ 349. Enigma’s
Enigma's second and third state-law claims alleged
tortious interference with business and contractual relations
in violation of New York state common law. The federal
claim accused Malwarebytes of making false and misleading
statements to deceive consumers into choosing
Malwarebytes’ss security software over Enigma’s,
Malwarebytes'
Enigma's, in violation
of the Lanham Act, 15 U.S.C. § 1125(a)(1)(B).
Malwarebytes sought a change of venue. Although
Enigma maintained that venue was proper in New York
Malwarebytes’s conduct affected users and
because Malwarebytes's
computers within that state, the conduct at issue had national
Malwarebytes’s
reach. The district court therefore granted Malwarebytes's
motion to transfer the case to the Northern District of
California, where Malwarebytes is headquartered.
Malwarebytes then moved to dismiss for failure to state
a claim, arguing that it was immune from liability under
§ 230(c)(2) of the CDA. The district court granted the
motion, finding that under the reasoning of our decision in
Zango, Malwarebytes was immune under § 230 on all of
Enigma's claims. The district court interpreted Zango to
Enigma’s
mean that anti-malware software providers are free to block
users from accessing any material that those providers, in
their discretion, deem to be objectionable.
Given
Malwarebytes’s status as a provider of filtering software, and
Malwarebytes's
its assertion that Enigma’s
Enigma's programs are potentially
unwanted, the district court held that Malwarebytes could not
users’ access to
be liable under state law for blocking users'
Enigma’s
Enigma's programs.

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 13 of 26

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

13

With respect to the federal claim, the district court had to
CDA’s
consider the intellectual property exception to the CDA's
immunity provision set forth in 47 U.S.C. § 230(e)(2). The
“shall
somewhat opaque exception states that § 230 immunity "shall
not be construed to limit or expand any law pertaining to
property.” Id. Enigma’s
intellectual property."
Enigma's federal claim alleged
false advertising under the Lanham Act, and Enigma
contended that immunity did not apply because that statute
deals with intellectual property, i.e.
L e. trademarks. The district
court reasoned, however, that although the Lanham Act itself
deals with intellectual property, Enigma’s
Enigma's false advertising
claim did not relate to any type of intellectual property and
therefore § 230 immunity encompassed that claim as well.
Having concluded that Malwarebytes was immune on all four
claims, the district court dismissed the complaint and granted
judgment for Malwarebytes.
On appeal, Enigma primarily contends that the district
court erred in interpreting our Zango opinion to give online
service providers unlimited discretion to block online content,
and that the Good Samaritan blocking provision does not
provide such sweeping immunity that it encompasses
anticompetitive conduct.
DISCUSSION
of § 230(c)(2) Immunity as Applied to StateI. Scope of
Law Claims
The district court held that our opinion in Zango
controlled, and interpreted Zango to mean that an onlineinternet users
service provider cannot be liable for blocking interne
from accessing online content that the provider considers
provider’s motivations or the
objectionable, regardless of the provider's

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 14 of 26

14

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

harmful effects of the blocking. The scope of the statutory
“otherwise objectionable,"
objectionable,” was not at issue in
catchall phrase, "otherwise
Zango, however. The central issue in Zango was whether
§ 230 immunity applies to filtering software providers like
the defendant Kaspersky in that case, and both parties in this
1173, 1176. We held such providers
case. See 568 F.3d at 1173,1176.
had immunity. Id. at 1177-78.
1177–78. At the end of our majority
opinion, we emphasized the relevant statutory language in
“that
stating that § 230 permits providers to block material "that
objectionable.”
either the provider or the user considers . . . objectionable."
See id. at 1177 (original emphasis). The district court focused
on that sentence and reasoned that Malwarebytes had
unfettered discretion to select what criteria makes a program
“objectionable” under § 230, and further, that the court was
"objectionable"
Malwarebytes’s reasons for doing so.
not to analyze Malwarebytes's
The majority in Zango did not, however, address whether
provider’s discretion to declare
there were limitations on a provider's
“objectionable.” No such issue was raised in
online content "objectionable."
“waived” the argument that
the appeal. We noted that Zango "waived"
“objectionable.” See id. at 1176-77.
1176–77. We
its software was not "objectionable."
Kaspersky’s
therefore held that § 230 immunity covered Kaspersky's
decision to block users from accessing the type of content at
issue in that case and concluded that § 230 permits providers
“the provider considers . . .
to block material that "the
objectionable.” Id. at 1177.
objectionable."
It was Judge Fisher's
Fisher’s concurring opinion in Zango that
framed the issue for future litigation as to whether the term
“objectionable” might be construed in a way that would
"objectionable"
immunize providers even if they blocked online content for
1178–80 (Fisher, J. concurring).
improper reasons. See id. at 1178-80
Judge Fisher warned that extending immunity beyond the
facts of that case could "pose
“pose serious problems,"
problems,” particularly

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 15 of 26

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

15

where a provider is charged with using § 230 immunity to
advance an anticompetitive agenda. See id. at 1178. He said
“unbounded” reading of the phrase "otherwise
“otherwise
that an "unbounded"
objectionable” would allow a content provider to "block
“block
objectionable"
content for anticompetitive purposes or merely at its
whim.” Id.
malicious whim."
District courts nationwide have grappled with the issues
discussed in Zango’s
Zango's majority and concurring opinions, and
have reached differing results. Like the district court in this
case, at least two other federal district courts have relied on
Zango to dismiss software-provider lawsuits against
Malwarebytes where the plaintiff claimed that Malwarebytes
plaintiff’s software as a PUP.
improperly characterized the plaintiffs
See PC Drivers Headquarters, LP v. Malwarebytes Inc.,
371 F. Supp. 3d 652 (N.D. Cal. 2019); PC Drivers
Headquarters, LP v. Malwarebytes, Inc., No. 1:18-CV-234RP, 2018 WL 2996897, at *1 (W.D. Tex. Apr. 23, 2018).
Other district courts have viewed our holding in Zango to
be less expansive. See Song fi Inc. v. Google, Inc., 108 F.
Supp. 3d 876, 884 (N.D. Cal. 2015) (noting that just because
“the statute requires the user or service provider to
"the
subjectively believe the blocked or screened material is
objectionable does not mean anything or everything YouTube
finds subjectively objectionable is within the scope of Section
230(c),” and concluding that, "[o]n
“[o]n the contrary such an
230(c),"
‘unbounded’
`unbounded' reading . . . would enable content providers to
‘block
reasons[.]’”) (quoting
`block content for anticompetitive reasons[.]"')
Judge Fisher's
Fisher’s concurrence in Zango); Sherman v. Yahoo!
Inc., 997 F. Supp. 2d 1129, 1138 (S.D. Cal. 2014) (same); see
also Holomaxx Techs. v. Microsoft Corp., 783 F. Supp. 2d
1097, 1104 (N.D. Cal. Mar. 11, 2011) (acknowledging that a
provider’s subjective determination of what constitutes
provider's

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 16 of 26

16

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

objectionable material under § 230(c)(2) is not limitless, but
finding that the harassing emails in that case were reasonably
objectionable).
We find these decisions recognizing limitations in the
scope of immunity to be persuasive. The courts interpreting
Zango as providing unlimited immunity seem to us to have
stretched our opinion in Zango too far. This is because the
focus of that appeal was neither what type of material may be
blocked, nor why it may be blocked, but rather who benefits
from § 230 immunity
immunity. The issue was whether § 230
immunity applies to filtering-software providers. See Zango,
568 F.3d at 1173. We answered that question in the
affirmative, explaining that Kaspersky was the type of
“interactive computer service"
service” to which § 230(c)(2) expressly
"interactive
referred, and that Kaspersky was engaged in the type of
conduct to which § 230(c)(2) generally applies. Id.
at 1175-76.
1175–76.
As relevant here, the majority opinion in Zango
establishes only that Malwarebytes, as a filtering-software
provider, is an entity to which the immunity afforded by
§ 230 would apply. The majority opinion does not require us
Malwarebytes’s
to hold that we lack the authority to question Malwarebytes's
determinations of what content to block. We must therefore
in this case analyze § 230 to decide what limitations, if any,
there are on the ability of a filtering software provider to
block users from receiving online programming.
The legal question before us is whether § 230(c)(2)
immunizes blocking and filtering decisions that are driven by
anticompetitive animus. The majority in Zango had no
occasion to address the issue, and the parties in that case were
not competitors. See 568 F. 3d at 1170 (explaining

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 17 of 26

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

17

Kaspersky is a security software provider; Zango provides an
online service for users to stream movies, video games, and
music). This is the first § 230 case we are aware of that
involves direct competitors.
In this appeal, Enigma alleges that Malwarebytes blocked
Enigma's programs for anticompetitive reasons, not because
Enigma’s
programs’ content was objectionable within the meaning
the programs'
of § 230, and that § 230 does not provide immunity for
Malwarebytes’s position is that,
anticompetitive conduct. Malwarebytes's
given the catchall, Malwarebytes has immunity regardless of
any anticompetitive motives.
Malwarebytes’s position, as it appears
We cannot accept Malwarebytes's
CDA’s history and purpose. Congress expressly
contrary to CDA's
“to preserve the vibrant and
provided that the CDA aims "to
competitive free market that presently exists for the Internet
services” and to "remove
“remove
and other interactive computer services"
disincentives for the development and utilization of blocking
technologies.” § 230(b)(2)—(3).
230(b)(2)–(3). Congress said
and filtering technologies."
it gave providers discretion to identify objectionable content
in large part to protect competition, not suppress it. Id. In
other words, Congress wanted to encourage the development
of filtration technologies, not to enable software developers
to drive each other out of business.
In the infancy of the internet, the unwillingness of
“otherwise
Congress to spell out the meaning of "otherwise
objectionable” was understandable. The broad grant of
objectionable"
protective control over online content may have been more
readily acceptable in an era before the potential magnitude of
internet communication was fully comprehended. Indeed, the
fears of harmful content at the time led Congress to enact, in
the same statute, an outright ban on the dissemination of

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 18 of 26

18

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

online pornography, a ban which the Supreme Court swiftly
rejected as unconstitutional a year later. See Reno v. ACLU,
521 U.S. at 877-79
877–79 (striking down 47 U.S.C. § 223).
We must today recognize that interpreting the statute to
give providers unbridled discretion to block online content
would, as Judge Fisher warned, enable and potentially
motivate internet-service providers to act for their own, and
not the public, benefit. See 568 F.3d at 1178 (Fisher, J.,
concurring). Immunity for filtering practices aimed at
suppressing competition, rather than protecting internet users,
would lessen user control over what information they receive,
Congress’s stated policy. See § 230(b)(3) (to
contrary to Congress's
maximize user control over what content they view). Indeed,
users selecting a security software provider must trust that the
user’s
provider will block material consistent with that user's
desires. Users would not reasonably anticipate providers
blocking valuable online content in order to stifle
competition. Immunizing anticompetitive blocking would,
statute’s express
therefore, be contrary to another of the statute's
“removing disincentives for the utilization of
policies: "removing
blocking and filtering technologies."
technologies.” Id. § 230(b)(4).
Malwarebytes’s position that § 230
We therefore reject Malwarebytes's
immunity applies regardless of anticompetitive purpose. But
we cannot, as Enigma asks us to do, ignore the breadth of the
“objectionable” by construing it to cover only material
term "objectionable"
that is sexual or violent in nature. Enigma would have us
“otherwise objectionable"
objectionable” as
read the general, catchall phrase "otherwise
limited to the categories of online material described in the
seven specific categories that precede it. See 47 U.S.C.
§ 230(c)(2) (describing material that is "obscene,
“obscene, lewd,
lascivious, filthy, excessively violent, harassing or otherwise
objectionable.”). Enigma argues that its software has no such
objectionable.").

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 19 of 26

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

19

content, and that Malwarebytes therefore cannot claim
immunity for blocking it.
Enigma relies on the principle of ejusdem generis, which
teaches that when a generic term follows specific terms, the
generic term should be construed to reference subjects akin
to those with the specific enumeration. See, e.g., Norfolk &
W. Ry. Co. v. Am. Train Dispatchers Ass
Ass’n,
117, 129
'n, 499 U.S. 117,129
(1991). But the specific categories listed in § 230(c)(2) vary
greatly: Material that is lewd or lascivious is not necessarily
similar to material that is violent, or material that is harassing.
If the enumerated categories are not similar, they provide
little or no assistance in interpreting the more general
category. We have previously recognized this concept. See
Reg’l Cty. Sanitation Dist. v. Reilly, 905 F.2d
Sacramento Reg'l
(“Where the list of objects that
1262, 1270 (9th Cir. 1990) ("Where
other’ phrase is dissimilar, ejusdem generis
precedes the ‘or
'or other'
apply”).
does not apply").
We think that the catchall was more likely intended to
encapsulate forms of unwanted online content that Congress
could not identify in the 1990s. But even if ejusdem generis
did apply, it would not support Enigma’s
Enigma's narrow
“otherwise objectionable."
objectionable.” Congress wanted
interpretation of "otherwise
internet users tools to avoid not only violent or
to give interne
sexually explicit materials, but also harassing materials.
Spam, malware and adware could fairly be placed close
“otherwise
enough to harassing materials to at least be called "otherwise
objectionable” while still being faithful to the principle of
objectionable"
ejusdem generis. Several district courts have, for example,
regarded unsolicited marketing emails as "objectionable."
“objectionable.”
See, e.g., Holomaxx, 783 F. Supp. 2d at 1104; e360Insight,
LLC v. Comcast Corp., 546 F. Supp. 2d 605, 608–610
608-610 (N.D.
Ill. 2008); see also Smith v. Trusted Universal Standards In

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 20 of 26

20

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

Elec. Transactions, Inc., No. CIV09-4567-RBK-KMW, 2010
WL 1799456, at *6 (D.N.J. May 4, 2010). But we do not, in
this appeal, determine the precise relationship between the
“otherwise objectionable”
term "otherwise
objectionable" and the seven categories that
provider’s basis for
precede it. We conclude only that if a provider's
objecting to and seeking to block materials is because those
materials benefit a competitor, the objection would not fall
within any category listed in the statute and the immunity
would not apply.
Malwarebytes’s fallback position is that, even if it would
Malwarebytes's
lack immunity for anticompetitive blocking, Malwarebytes
“objectionable” for legitimate
has found Enigma’s
Enigma's programs "objectionable"
programs’ content. Malwarebytes
reasons based on the programs'
asserts that Enigma’s
Enigma's programs, SpyHunter and RegHunter,
“deceptive tactics"
tactics” to scare users into believing that they
use "deceptive
have to download Enigma’s
Enigma's programs to prevent their
computers from being infected. Enigma alleges, however,
“pose no security threat"
threat” and that
that its programs "pose
Malwarebytes’s justification for blocking these "legitimate"
“legitimate”
Malwarebytes's
and "highly
“highly regarded"
regarded” programs was a guise for
anticompetitive animus.
The district court interpreted our holding in Zango to
foreclose this debate entirely, implicitly reasoning that if
Malwarebytes has sole discretion to select what programs are
“objectionable,” the court need not evaluate the reasons for
"objectionable,"
the designation. Because we hold that § 230 does not provide
immunity for blocking a competitor’s
competitor's program for
anticompetitive reasons, and because Enigma has specifically
alleged that the blocking here was anticompetitive, Enigma’s
Enigma's
claims survive the motion to dismiss. We therefore reverse
Enigma's state-law claims and we remand for
the dismissal of Enigma’s
further proceedings.

21 of 26
Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 21

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

21

II. The Federal Claim and the CDA's
CDA’s Intellectual
Property Exception
Enigma’s
Enigma's fourth claim is a claim for false advertising
under the Lanham Act, a statute dealing with a form of
intellectual property, i.e. trademarks. Enigma alleges that
Malwarebytes publicly mischaracterized Enigma’s
Enigma's programs
SpyHunter and RegHunter as potentially unwanted or PUPs,
and it did so in order to interfere with Enigma’s
Enigma's customer
base and divert those customers to Malwarebytes.
Section 230(e)(2) of the CDA contains an exception to
immunity for intellectual property claims. See 47 U.S.C.
§ 230(e)(2). This exception, known as the intellectual
“limit
property carve out, states that § 230 immunity shall not "limit
property.” Id. In
or expand any law pertaining to intellectual property."
light of that exception, Enigma contends that immunity would
Enigma’s Lanham Act claim, even if immunity is
not bar Enigma's
available to Malwarebytes on the state law claims. Although
Enigma’s
Enigma's claim does not itself involve an intellectual
property right, Enigma characterizes its federal false
advertising claim as one "pertaining
“pertaining to intellectual property"
property”
within the meaning of § 230(e)(2) because the Lanham Act
deals with intellectual property. The district court rejected
this argument, and rightly so.
This is because even though the Lanham Act is known as
the federal trademark statute, not all claims brought under the
statute involve trademarks. The Act contains two parts, one
governing trademark infringement and another governing
false designations of origin, false descriptions, and dilution.
Compare 15 U
U.S.C. § 1114 (trademark infringement) with id.
§ 1125 (the rest). The latter, § 1125, creates two bases of
liability, false association and false advertising. Compare

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 22 of 26

22

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

§ 1125
1125(a)(1)(A)
1125(a)(1)(B)
(a)(1)(A) (false association) with § 1125
(a)(1)(B)
“much of the Lanham Act
(false advertising). Thus, although "much
addresses the registration, use, and infringement of
trademarks and related marks, . . . § 1125(a) is one of the few
protection.” Dastar
provisions that goes beyond trademark protection."
Corp. v. Twentieth Cent. Fox Film Corp., 539 U.S. 23, 28-29
28–29
(2003).
In this appeal, we must decide whether the exception to
immunity contained in § 230(e)(2) applies to false advertising
claims brought under the Lanham Act. Our court has not
addressed the issue, although we have considered the
exception as it would apply to state law claims. See Perfect
10 v. CCBill, LLC, 488 F.3d 1102, 1118-19
1118–19 (9th Cir. 2009)
(concluding that the intellectual property exception in
§ 230(e)(2) was not intended to cover intellectual property
claims brought under state law); see also Gen. Steel Domestic
Sales, L.L.C. v. Chumley, 840 F.3d 1178, 1182 (10th Cir.
2016) (declining to analyze the intellectual property
“§ 230 does not contain
exception; explaining that because "§
the grant of immunity from suit contended for, it is
unnecessary to discuss its applicability to the Lanham Act
false advertising claims").
claims”).

We have observed before that because Congress did not
“intellectual property law,”
define the term "intellectual
law," it should be
CDA’s express policy of
construed narrowly to advance the CDA's
providing broad immunity
immunity. See Perfect 10, 488 F.3d at 1119.
One of these express policy reasons for providing immunity
“to preserve the
was, as Congress stated in § 230(b)(2), "to
vibrant and competitive free market that presently exists for
the Internet and other interactive computer services,
regulation.” 47 U.S.C.
unfettered by Federal or State regulation."
§ 230(b)(2). The intellectual property exception is a

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 23 of 26

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

23

limitation on immunity, and the CDA's
CDA’s stated congressional
purpose counsels against an expansive interpretation of the
immunity. If the
exception that would diminish the scope of immunity
intellectual property law exception were to encompass any
claim raised under the Lanham Act—including false
advertising claims that do not directly involve intellectual
property rights—it would create a potential for new liability
“preserve” the vibrant culture of
that would upset, rather than "preserve"
internet that Congress envisioned. Id.
innovation on the interne
We therefore hold that the intellectual property exception
contained in § 230(e)(2) encompasses claims pertaining to an
established intellectual property right under federal law, like
those inherent in a patent, copyright, or trademark. The
exception does not apply to false advertising claims brought
under § 1125(a) of the Lanham Act, unless the claim itself
involves intellectual property.
Here, Enigma’s
Enigma's Lanham Act claim derives from the
statute’s false advertising provision. Enigma alleges that
statute's
Malwarebytes mischaracterized Enigma’s
Enigma's most popular
software programs in order to divert Enigma's
Enigma’s customers to
Malwarebytes. These allegations do not relate to or involve
trademark rights or any other intellectual property rights.
Thus, Enigma’s
Enigma's false advertising claim is not a claim
“pertaining to intellectual property law"
law” within the meaning
"pertaining
of § 230(e)(2). The district court correctly concluded that the
intellectual property exception to immunity does not
encompass Enigma’s
Enigma's Lanham Act claim.
The district court went on to hold, however, as it did with
the state law claims, that Malwarebytes is nevertheless
immune from liability under our decision in Zango. As we
have explained with respect to the state law claims, Zango did

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 24 of 26

24

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

not define an unlimited scope of immunity under § 230, and
immunity under that section does not extend to
anticompetitive conduct. Because the federal claim, like the
state claims, is based on allegations of such conduct, the
federal claim survives dismissal. We therefore reverse the
court’s judgment in favor of Malwarebytes and
district court's
remand for further proceedings on this claim as well.
CONCLUSION
The judgment of the district court is reversed and the case
is remanded for further proceedings consistent with this
opinion.

REVERSED and REMANDED.

RAWLINSON, Circuit Judge, dissenting:
In his concurring opinion in Zango, Inc. v. Kaspersky
1179–80 (9th Cir. 2009), Judge
Lab, Inc., 568 F.3d 1169, 1179-80
“until Congress clarifies the statute
Fisher acknowledged that "until
limitation,”
or a future litigant makes the case for a possible limitation,"
“broadly worded"
worded” Communications Decency Act (the
the "broadly
Act) afforded immunity to a distributor of Internet security
software. Congress has not further clarified the statute and
Enigma Software has not persuasively made a case for
limitation of the statute beyond its provisions.
The majority opinion seeks to limit the statute based on
the fact that the parties are competitors. See Majority
Opinion, p. 4. However, nothing in the statutory provisions
or our majority opinion in Zango supports such a distinction.

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 25 of 26

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

25

“broad language”
Rather the "broad
language" of the Act specifically
“any action voluntarily taken [by a provider] to
encompasses "any
restrict access to . . . material that the provider . . . considers
objectionable.” 47 U.S.C. § 230(c)(2)(A)
to be . . . otherwise objectionable."
(emphasis added). Under the language of the Act, so long as
provider’s action is taken to remove "otherwise
“otherwise
the provider's
objectionable” material, the restriction of access is
objectionable"
immunized. See id. The majority's
majority’s real complaint is not that
the district court construed the statute too broadly, but that the
statute is written too broadly. However, that defect, if it is a
defect, is one beyond our authority to correct. See Baker
Botts LLP v. ASARCO LLC, 135 S. Ct. 2158, 2169 (2015).
In particular, the majority holds that the criteria for
blocking online material may not be based on the identity of
the entity that produced it. See Majority Opinion, p. 10.
Unfortunately, however, that conclusion cannot be squared
with the broad language of the Act. Under the language of
“otherwise objectionable"
objectionable”
the statute, if the blocked content is "otherwise
immunity. Zango, 568 F.3d
to the provider, the Act bestows immunity
(“[T]he statute plainly immunizes from suit a
at 1173 ("[T]he
provider of interactive computer services that makes available
software that filters or screens material that the user or the
objectionable.”) (emphasis in the original);
provider deems objectionable.")
1174 ("According
(“According protection to providers of programs that
filter adware and malware is also consistent with the
Congressional goals for immunity articulated in [47 U.S.C.]
§ 230 itself.").
itself.”). Although the parties were not direct
competitors, the plaintiff in Zango asserted similar anti1171–72. The majority's
majority’s
competition effects. See id. at 1171-72.
policy arguments are in conflict with our recognition in
Zango that the broad language of the Act is consistent with
“the Congressional goals for immunity”
"the
immunity" as expressed in the
language of the statute. Id. at 1174. As the district court

Case: 17-17351, 09/12/2019, ID: 11429120, DktEntry: 42-1, Page 26 of 26

26

ENIGMA
SOFTWARE
E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES

“must presume that a legislature says in
cogently noted, we "must
a statute what it means and means in a statute what it says
there.” Connecticut Nat'l
Nat’l Bank v. Germain, 503 U.S. 249,
there."
253–54 (1992) (citations omitted).
253-54
I respectfully dissent.

APPENDIX C

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 1 of 27

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

E
NIGMA S
OFTWARE GROUP
GROUP USA,
ENIGMA
SOFTWARE
LLC,
Plaintiff-Appellant,
Plaintiff:Appellant,
v.
MALWAREBYTES, INC.,
INC.,
MALWAREBYTES,
Defendant-Appellee.

No. 17-17351
D.C. No.
5:17-cv-02915EJD
ORDER AND
AMENDED
OPINION

Appeal from the United States District Court
for the Northern District of California
Edward J. Davila, District Judge, Presiding
Argued and Submitted February 15, 2019
San Francisco, California
Filed September 12, 2019
Amended December 31, 2019
Before: Mary M. Schroeder and Johnnie B. Rawlinson,
Circuit Judges, and Robert S. Lasnik,
Lasnik,** District Judge.
Opinion by Judge Schroeder;
Dissent by Judge Rawlinson
** The Honorable Robert S. Lasnik, United States District Judge for the
Western District of Washington, sitting by designation.

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 2 of 27

2

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE
**
SUMMARY**
SUMMARY

Communications Decency Act
The panel filed (1) an order withdrawing its opinion and
replacing the opinion with an amended opinion, denying a
petition for panel rehearing, and denying on behalf of the
court a petition for rehearing en banc; and (2) an amended
opinion reversing the district court's
court’s dismissal, as barred by
§ 230 of the Communications Decency Act, of claims under
Act’s false advertising
New York law and the Lanham Act's
provision.
Enigma Software Group USA, LLC, and Malwarebytes,
Inc., were providers of software that helped internet
interne users to
filter unwanted content from their computers. Enigma
alleged that Malwarebytes configured its software to block
users from accessing Enigma’s
Enigma's software in order to divert
Enigma's customers.
Enigma’s
Section 230, the so-called "Good
“Good Samaritan”
Samaritan" provision of
the Communications Decency Act, immunizes software
providers from liability for actions taken to help users block
certain types of unwanted online material, including material
that is of a violent or sexual nature or is "otherwise
“otherwise
objectionable.” Distinguishing Zango, Inc. v. Kaspersky Lab,
objectionable."
Inc., 568 F.3d 1169 (9th Cir. 2009), the panel held that the
“otherwise objectionable"
objectionable” does not include software
phrase "otherwise
that the provider finds objectionable for anticompetitive
reasons. As to the state-law claims, the panel held that
**

— This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 3 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

3

Enigma's allegations of anticompetitive animus were
Enigma’s
sufficient to withstand dismissal. As to the federal claim, the
230’s exception for intellectual
panel further held that § 230's
property claims did not apply because this false advertising
claim did not relate to trademarks or any other type of
intellectual property. The panel remanded the case for further
proceedings.
Dissenting, Judge Rawlinson wrote that § 230 is broadly
worded, and Enigma did not persuasively make a case for
limitation of the statute beyond its provisions.

COUNSEL
Terry Budd (argued), Budd Law PLLC, Wexford,
Pennsylvania; Christopher M. Verdini and Anna Shabalov,
K&L Gates LLP, Pittsburgh, Pennsylvania; Edward P.
Sangster, K&L Gates LLP, San Francisco, California; for
Plaintiff-Appellant.
Tyler G. Newby (argued), Guinevere L. Jobson, and Sapna
Mehta, Fenwick & West LLP, San Francisco, California;
Benjamin A. Field, Neal Kumar Katyal, and Reedy Swanson,
Hogan Lovells US LLP, Washington, D.C; for DefendantAppellee.
Sophia Cope and Aaron Mackey, Electronic Frontier
Foundation, San Francisco, California, for Amici Curiae
Electronic Frontier Foundation and CAUCE North America.

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 4 of 27

4

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

Venkat Balasubramani, Focal PLLC, Seattle, Washington;
Eric Goldman, Professor; Jess Miers, Law Student; Santa
Clara University School of Law, Santa Clara, California; for
Amici Curiae Cybersecurity Law Professors.
Anna-Rose Mathieson and Charles Kagay, California
Appellate Law Group LLP, San Francisco, California, for
Amicus Curiae ESET, LLC.
Brian M. Willen, Wilson Sonsini Goodrich & Rosati, New
York, New York; Lauren Gallo White, Wilson Sonsini
Goodrich & Rosati, San Francisco, California; for Amicus
Curiae Internet Association.

ORDER
The opinion filed September 12, 2019 (Docket Entry No.
42), and appearing at 938 F.3d 1026, is withdrawn and
replaced by an amended opinion concurrently filed with this
order.
With these amendments, Judge Rawlinson voted to grant
the petition for panel rehearing. Judges Schroeder and Lasnik
voted to deny the petition for panel rehearing. Judge
Rawlinson voted to grant the petition for rehearing en banc.
Judges Schroeder and Lasnik recommended denying the
petition for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 5 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

5

The petition for rehearing and petition for rehearing en
banc are DENIED. No further petitions for rehearing or
rehearing en banc will be entertained.

OPINION

SCHROEDER, Circuit Judge:
OVERVIEW
This dispute concerns § 230, the so-called "Good
“Good
Samaritan”
Samaritan" provision of the Communications Decency Act of
1996, enacted primarily to protect minors from harmful
online viewing. The provision immunizes computer-software
providers from liability for actions taken to help users block
certain types of unwanted, online material. The provision
expressly describes material of a violent or sexual nature, but
“otherwise
also includes a catchall for material that is "otherwise
objectionable.” 47 U.S.C. § 230(c)(2). We have previously
objectionable."
recognized that the provision establishes a subjective standard
whereby internet users and software providers decide what
online material is objectionable. See Zango Inc. v. Kaspersky
Lab, Inc., 568 F.3d 1169, 1173 (9th Cir. 2009).
The parties to this dispute are both providers of software
that help internet users filter unwanted content from their
computers. Plaintiff-Appellant Enigma Software Group
USA, LLC has alleged violations of New York state law and
a violation of the Lanham Act's
Act’s false advertising provision.
Each claim is based on the allegation that defendant,
Malwarebytes Inc., has configured its software to block users
from accessing Enigma's
Enigma’s software in order to divert Enigma’s
Enigma's
customers. The district court, relying on Zango, dismissed

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 6 of 27

6

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

230’s broad recognition of
the action as barred by § 230's
immunity
immunity. We did not hold in Zango, however, that the
immunity was limitless.
This case differs from Zango in that here the parties are
competitors. In this appeal Enigma contends that the
“otherwise objectionable"
objectionable” catchall is not broad enough to
"otherwise
provider’s objection to a rival's
rival’s software in
encompass a provider's
order to suppress competition. Enigma points to Judge
Fisher’s concurrence in Zango warning against an overly
Fisher's
expansive interpretation of the provision that could lead to
anticompetitive results. We heed that warning and reverse
court’s decision that read Zango to require such an
the district court's
We hold that the phrase "otherwise
“otherwise
interpretation.
objectionable” does not include software that the provider
objectionable"
finds objectionable for anticompetitive reasons.
Malwarebytes contends that it had legitimate reasons for
finding Enigma’s
Enigma's software objectionable apart from any
anticompetitive effect, and that immunity should therefore
apply on Enigma’s
Enigma's state-law claims, even if the district court
erred in its interpretation of Zango. We conclude, however,
that Enigma’s
Enigma's allegations of anticompetitive animus are
sufficient to withstand dismissal.
Enigma's federal claim warrants an additional analytical
Enigma’s
step. The CDA's
CDA’s immunity provision contains an exception
for intellectual property claims, stating that "[n]othing
“[n]othing in this
section shall be construed to limit or expand any law
property.” 47 U.S.C. § 230(e)(2).
pertaining to intellectual property."
Enigma has brought a false advertising claim under the
Lanham Act, a federal statute that deals with trademarks.
Enigma contends that the false advertising claim is one

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 7 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

7

“pertaining to intellectual property"
property” and thus outside the
"pertaining
scope of § 230 immunity.
Although it is true that the Lanham Act itself deals with
Enigma’s false
intellectual property, i.e. trademarks, Enigma's
advertising claim does not relate to trademarks or any other
type of intellectual property. The district court therefore
correctly held that the intellectual property exception to
immunity does not apply to the false advertising claim. The
district court went on to hold that under Zango’s
Zango' s application
of § 230 immunity, Malwarebytes was immune from liability
for false advertising. As with Enigma's
Enigma’s state law claims, we
hold that the district court read Zango too broadly in
dismissing the federal claim. We therefore reverse the
judgment on this claim as well.
STATUTORY BACKGROUND
This appeal centers on the immunity provision contained
(“CDA”),
in § 230(c)(2) of the Communications Decency Act ("CDA"),
47 U.S.C. § 230(c)(1996). The CDA, which was enacted as
part of the Telecommunications Act of 1996, contains this
“Good Samaritan”
"Good
Samaritan" provision that, in subparagraph B,
internet-service providers from liability for giving
immunizes interne-service
internet users the technical means to restrict access to the
interne
types of material described in the subparagraph A. Id.
§ 230(c)(2)(B).
The material, as described in that
“material that the provider or user considers
subparagraph, is "material
to be obscene, lewd, lascivious, filthy, excessively violent,
objectionable.” Id. § 230(c)(2)(A).1
230(c)(2)(A).1
harassing, or otherwise objectionable."
“Protection for ‘Good
'1 Section 230(c) is entitled "Protection
'Good Samaritan’
Samaritan' blocking
material.” The relevant subsection (2), "Civil
“Civil
and screening of offensive material."
liability,”
liability," states, in full, as follows:

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 8 of 27

8

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

This grant of immunity dates back to the early days of the
internet when concerns first arose about children being able
interne
to access online pornography. Parents could not program
their computers to block online pornography, and this was at
least partially due to a combination of trial court decisions in
New York that had deterred the creation of online-filtration
efforts. In the first case, Cubby, Inc. v. CompuServe, Inc., a
federal court held that passive providers of online services
and content were not charged with knowledge of, or
responsibility for, the content on their network. See 776
F. Supp. 135, 139-43
139–43 (S.D.N.Y. 1991). Therefore, if a
provider remained passive and uninvolved in filtering thirdparty material from its network, the provider could not be
held liable for any offensive content it carried from third
parties. See id.
The corollary of this rule, as later articulated by a New
York state trial court, was that once a service provider
undertook to filter offensive content from its network, it

“No provider or user of an interactive computer service
"No
–
shall be held liable on account of —

(A) any action voluntarily taken in good faith to restrict
access to or availability of material that the provider or
user considers to be obscene, lewd, lascivious, filthy,
excessively violent, harassing, or otherwise
objectionable, whether or not such material is
constitutionally protected; or
(B) any action taken to enable or make available to
information content providers or others the technical
means to restrict access to material described in
[A].”
paragraph [A]."
47 U.S.C. § 230(c)(2)(A), (B).

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 9 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

9

assumed responsibility for any offensive content it failed to
filter, even if it lacked knowledge of the content. See Stratton
Oakmont, Inc. v. Prodigy Services Co., 1995 WL 323710, *5
(“Prodigy’s conscious choice,
(N.Y. Sup. Ct. May 24, 1995) ("Prodigy's
to gain the benefits of editorial control, has opened it up to a
greater liability than CompuServe and other computer
choice.”), superseded by statute,
networks that make no such choice."),
Communications Decency Act, Pub. L. No. 104-104, 110
Stat. 137, as recognized in Shiamili v. Real Estate Group of
N.Y., Inc., 952 N.E.2d 1011 (2011). Representative Chris
Cox warned during debates on proposed legislation aimed at
overruling Stratton Oakmont, that premising liability on
providers’ efforts to filter out offensive material was
providers'
deterring software companies from providing the filtering
software and tools that could help parents block pornography
and other offensive material from their home computers. See
141 Cong. Rec. 22,045 (1995) (statement of Rep. Cox).
The Stratton Oakmont decision, along with the increasing
public concern about pornography on the internet, served as
catalysts for legislators to consider greater internet regulation.
Congress considered, in early 1995, two different
amendments to the Telecommunications Act. The first,
called the Exon-Coats amendment, targeted pornography at
the source by prohibiting its dissemination. See id. at 16,068.
Proponents of this bill argued that parents lacked the
technological sophistication needed to implement onlinefiltration tools and that the government therefore needed to
step in. Id. at 16,099. The second proposal, entitled the
(“OFEA”), targeted
Online Family Empowerment Act ("OFEA"),
internet pornography at the receiving end by encouraging
further development of filtration tools. Id. at 22,044.
Proponents of this bill pointed out that prohibiting
pornography at the source raised constitutional issues

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 10 of 27

10

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

involving prior restraint, and argued that parents, not
government bureaucrats, were better positioned to protect
their children from offensive online material. Id. at 16,013.
On February 1, 1996, Congress enacted both approaches
as part of the CDA. The Exon-Coats amendment was
U.S.C.
codified at 47 U.
S.C. § 223, but was later invalidated by Reno
OFEA’s
v. ACLU, 521 U.S. 844, 877–79
877-79 (1997). Before us is OFEA's
approach, enacted as § 230(c)(2) of the CDA. See Pub L. No.
137–39. By immunizing
104-104, § 509, 110 Stat. 56, 137-39.
internet-service providers from liability for any action taken
to block, or help users block offensive and objectionable
online content, Congress overruled Stratton Oakmont and
thereby encouraged the development of more sophisticated
methods of online filtration. See H.R. Conf. Rep. No. 104879, at 194 (1996).
The history of § 230(c)(2) shows that access to
Congress’s motivating concern, but the
pornography was Congress's
language used in § 230 included much more, covering any
“excessively violent,
online material considered to be "excessively
harassing, or otherwise objectionable."
objectionable.” See 47 U.S.C.
§ 230(c)(2)(A)—(B).
230(c)(2)(A)–(B). Perhaps to guide the interpretation of
this broad language, Congress took the rather unusual step of
setting forth policy goals in the immediately preceding
paragraph of the statute. See id. § 230(b). Of the five goals,
“to
three are particularly relevant here. These goals were "to
encourage the development of technologies which maximize
control”; "to
“to empower parents to restrict their children's
children’s
user control";
content”; and
access to objectionable or inappropriate online content";
“to preserve the vibrant and competitive free market that
"to
presently exists for the Internet and other interactive
services.” See id. § 230(b)(2)—(4).
230(b)(2)–(4).
computer services."

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 11 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

11

This court has decided one prior case where we
considered the scope of § 230, but were principally concerned
with which types of online-service providers Congress
intended to immunize. See Zango, 568 F.3d at 1175. We
acknowledged that providers of computer security software
can benefit from § 230 immunity, and that such providers
have discretion to identify what online content is considered
“objectionable,” id., but we had no reason to discuss the
"objectionable,"
scope of that discretion. The separate concurrence in Zango
focused on the future need for considering appropriate
limitations on provider control. See id. at 1178-80
1178–80 (Fisher,
J. concurring). District courts have differed in their
interpretations of Zango and the discretion granted to
providers. What is clear to us from the statutory language,
history, and case law is that providers do not have unfettered
“objectionable” and
discretion to declare online content "objectionable"
blocking and filtering decisions that are driven by
anticompetitive animus are not entitled to immunity under
section 230(c)(2).
FACTUAL BACKGROUND
Plaintiff-appellant Enigma Software Group USA, LLC, is
a Florida company that sells computer security software
nationwide. Malwarebytes Inc., a Delaware corporation
headquartered in California, also sells computer security
software nationwide. Malwarebytes and Enigma are
therefore direct competitors.
Providers of computer security software help users
identify and block malicious or threatening software, termed
malware, from their computers. Each provider generates its
own criteria to determine what software might threaten users.
Defendant Malwarebytes programs its software to search for

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 12 of 27

12

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

(“PUPs”). PUPs
what it calls Potentially Unwanted Programs ("PUPs").
include, for example, what Malwarebytes describes as
“obtrusive, misleading, or deceptive
software that contains "obtrusive,
practices.” Once
advertisements, branding or search practices."
Malwarebytes’s security software is purchased and installed
Malwarebytes's
user’s computer, it scans for PUPs, and according to
on a user's
Enigma's complaint, if the user tries to download a program
Enigma’s
that Malwarebytes has determined to be a PUP, a pop-up alert
warns the user of a security risk and advises the user to stop
the download and block the potentially threatening content.
Malwarebytes and Enigma have been direct competitors
Malwarebytes’s inception. In their
since 2008, the year of Malwarebytes's
first eight years as competitors, neither Enigma nor
other’s software as threatening or
Malwarebytes flagged the other's
unwanted. In late 2016, however, Malwarebytes revised its
PUP-detection criteria to include any program that, according
to Malwarebytes, users did not seem to like.
Malwarebytes’s software immediately
After the revision, Malwarebytes's
began flagging Enigma’s
Enigma's most popular programs—
RegHunter and SpyHunter—as PUPs. Thereafter, anytime a
Malwarebytes’s software tried to download those
user with Malwarebytes's
Enigma programs, the user was alerted of a security risk and,
according to Enigma's
Enigma’s complaint, the download was
“quarantined” the programs.
prohibited, i.e. Malwarebytes "quarantined"
Enigma alleges that Malwarebytes's
Malwarebytes’s new definition of a PUP
includes subjective criteria that Malwarebytes has
"implemented
“implemented at its own malicious whim"
whim” in order to identify
Enigma’s
Enigma's programs as threats. Enigma characterizes the
revision as a "guise"
“guise” for anticompetitive conduct, and alleges
“legitimate”, "highly
“highly regarded",
regarded”, and
that its programs are "legitimate",
“pose no security threat."
threat.” As a result of Malwarebytes's
Malwarebytes’s
"pose

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 13 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

13

actions, Enigma claims that it has lost customers and revenue
and experienced harm to its reputation.
Enigma brought this action against Malwarebytes in early
2017, in the Southern District of New York. Enigma claimed
that Malwarebytes has used its PUP-modification process to
competition" aimed
“bad faith campaign of unfair competition”
advance a "bad
“deceiving consumers and interfering with [Enigma's]
[Enigma’s]
at "deceiving
customer relationships.”
relationships."
Enigma's complaint alleged four claims, three under New
Enigma’s
York state law and one under federal law. The first state-law
claim accused Malwarebytes of using deceptive business
practices in violation of New York General Business Law
§ 349. Enigma’s
Enigma's second and third state-law claims alleged
tortious interference with business and contractual relations
in violation of New York state common law. The federal
claim accused Malwarebytes of making false and misleading
statements to deceive consumers into choosing
Malwarebytes’ss security software over Enigma’s,
Malwarebytes'
Enigma's, in violation
of the Lanham Act, 15 U.S.C. § 1125(a)(1)(B).
Malwarebytes sought a change of venue. Although
Enigma maintained that venue was proper in New York
Malwarebytes’s conduct affected users and
because Malwarebytes's
computers within that state, the conduct at issue had national
Malwarebytes’s
reach. The district court therefore granted Malwarebytes's
motion to transfer the case to the Northern District of
California, where Malwarebytes is headquartered.
Malwarebytes then moved to dismiss for failure to state
a claim, arguing that it was immune from liability under
§ 230(c)(2) of the CDA. The district court granted the
motion, finding that under the reasoning of our decision in

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 14 of 27

14

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

Zango, Malwarebytes was immune under § 230 on all of
Enigma's claims. The district court interpreted Zango to
Enigma’s
mean that anti-malware software providers are free to block
users from accessing any material that those providers, in
Given
their discretion, deem to be objectionable.
Malwarebytes’s status as a provider of filtering software, and
Malwarebytes's
its assertion that Enigma’s
Enigma's programs are potentially
unwanted, the district court held that Malwarebytes could not
users’ access to
be liable under state law for blocking users'
Enigma’s
Enigma's programs.
With respect to the federal claim, the district court had to
CDA’s
consider the intellectual property exception to the CDA's
immunity provision set forth in 47 U.S.C. § 230(e)(2). The
“shall
somewhat opaque exception states that § 230 immunity "shall
not be construed to limit or expand any law pertaining to
property.” Id. Enigma’s
intellectual property."
Enigma's federal claim alleged
false advertising under the Lanham Act, and Enigma
contended that immunity did not apply because that statute
deals with intellectual property, i.e. trademarks. The district
court reasoned, however, that although the Lanham Act itself
deals with intellectual property, Enigma’s
Enigma's false advertising
claim did not relate to any type of intellectual property and
therefore § 230 immunity encompassed that claim as well.
Having concluded that Malwarebytes was immune on all four
claims, the district court dismissed the complaint and granted
judgment for Malwarebytes.
On appeal, Enigma primarily contends that the district
court erred in interpreting our Zango opinion to give online
service providers unlimited discretion to block online content,
and that the Good Samaritan blocking provision does not
provide such sweeping immunity that it encompasses
anticompetitive conduct.

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 15 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

15

DISCUSSION
of § 230(c)(2) Immunity as Applied to StateI. Scope of
Law Claims
The district court held that our opinion in Zango
controlled, and interpreted Zango to mean that an onlineinternet users
service provider cannot be liable for blocking interne
from accessing online content that the provider considers
provider’s motivations or the
objectionable, regardless of the provider's
harmful effects of the blocking. The scope of the statutory
“otherwise objectionable,"
objectionable,” was not at issue in
catchall phrase, "otherwise
Zango, however. The central issue in Zango was whether
§ 230 immunity applies to filtering software providers like
the defendant Kaspersky in that case, and both parties in this
1173, 1176. We held such providers
case. See 568 F.3d at 1173,1176.
had immunity
immunity. Id. at 1177-78.
1177–78. At the end of our majority
opinion, we emphasized the relevant statutory language in
“that
stating that § 230 permits providers to block material "that
objectionable.”
either the provider or the user considers . . . objectionable."
See id. at 1177 (original emphasis). The district court focused
on that sentence and reasoned that Malwarebytes had
unfettered discretion to select what criteria makes a program
“objectionable” under § 230, and further, that the court was
"objectionable"
Malwarebytes’s reasons for doing so.
not to analyze Malwarebytes's
The majority in Zango did not, however, address whether
provider’s discretion to declare
there were limitations on a provider's
“objectionable.” No such issue was raised in
online content "objectionable."
“waived” the argument that
the appeal. We noted that Zango "waived"
its software was not "objectionable."
“objectionable.” See id. at 1176-77.
1176–77. We
Kaspersky’s
therefore held that § 230 immunity covered Kaspersky's
decision to block users from accessing the type of content at
issue in that case and concluded that § 230 permits providers

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 16 of 27

16

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

“the provider considers . . .
to block material that "the
objectionable.” Id. at 1177.
objectionable."
It was Judge Fisher's
Fisher’s concurring opinion in Zango that
framed the issue for future litigation as to whether the term
“objectionable” might be construed in a way that would
"objectionable"
immunize providers even if they blocked online content for
1178–80 (Fisher, J. concurring).
improper reasons. See id. at 1178-80
Judge Fisher warned that extending immunity beyond the
facts of that case could "pose
“pose serious problems,"
problems,” particularly
where a provider is charged with using § 230 immunity to
advance an anticompetitive agenda. See id. at 1178. He said
“unbounded” reading of the phrase "otherwise
“otherwise
that an "unbounded"
objectionable” would allow a content provider to "block
“block
objectionable"
content for anticompetitive purposes or merely at its
whim.”" Id.
malicious whim
District courts nationwide have grappled with the issues
Zango’s majority and concurring opinions, and
discussed in Zango's
have reached differing results. Like the district court in this
case, at least two other federal district courts have relied on
Zango to dismiss software-provider lawsuits against
Malwarebytes where the plaintiff claimed that Malwarebytes
plaintiff’s software as a PUP.
improperly characterized the plaintiff's
See PC Drivers Headquarters, LP v. Malwarebytes Inc.,
371 F. Supp. 3d 652 (N.D. Cal. 2019); PC Drivers
Headquarters, LP v. Malwarebytes, Inc., No. 1:18-CV-234RP, 2018 WL 2996897, at *1 (W.D. Tex. Apr. 23, 2018).
Other district courts have viewed our holding in Zango to
be less expansive. See Song fi Inc. v. Google, Inc., 108 F.
Supp. 3d 876, 884 (N.D. Cal. 2015) (noting that just because
“the statute requires the user or service provider to
"the
subjectively believe the blocked or screened material is

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 17 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

17

objectionable does not mean anything or everything YouTube
finds subjectively objectionable is within the scope of Section
230(c),” and concluding that, "[o]n
“[o]n the contrary such an
230(c),"
‘unbounded’
`unbounded' reading . . . would enable content providers to
‘block
reasons[.]’”) (quoting
`block content for anticompetitive reasons[.]"')
Judge Fisher's
Fisher’s concurrence in Zango); Sherman v. Yahoo!
Inc., 997 F. Supp. 2d 1129, 1138 (S.D. Cal. 2014) (same); see
also Holomaxx Techs. v. Microsoft Corp., 783 F. Supp. 2d
1097, 1104 (N.D. Cal. Mar. 11, 2011) (acknowledging that a
provider’s subjective determination of what constitutes
provider's
objectionable material under § 230(c)(2) is not limitless, but
finding that the harassing emails in that case were reasonably
objectionable).
We find these decisions recognizing limitations in the
scope of immunity to be persuasive. The courts interpreting
Zango as providing unlimited immunity seem to us to have
stretched our opinion in Zango too far. This is because the
focus of that appeal was neither what type of material may be
blocked, nor why it may be blocked, but rather who benefits
from § 230 immunity
immunity. The issue was whether § 230
immunity applies to filtering-software providers. See Zango,
568 F.3d at 1173. We answered that question in the
affirmative, explaining that Kaspersky was the type of
“interactive computer service"
service” to which § 230(c)(2) expressly
"interactive
referred, and that Kaspersky was engaged in the type of
conduct to which § 230(c)(2) generally applies. Id.
at 1175-76.
1175–76.
As relevant here, the majority opinion in Zango
establishes only that Malwarebytes, as a filtering-software
provider, is an entity to which the immunity afforded by
§ 230 would apply. The majority opinion does not require us
Malwarebytes’s
to hold that we lack the authority to question Malwarebytes's

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 18 of 27

18

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

determinations of what content to block. We must therefore
in this case analyze § 230 to decide what limitations, if any,
there are on the ability of a filtering software provider to
block users from receiving online programming.
The legal question before us is whether § 230(c)(2)
immunizes blocking and filtering decisions that are driven by
anticompetitive animus. The majority in Zango had no
occasion to address the issue, and the parties in that case were
not competitors. See 568 F. 3d at 1170 (explaining
Kaspersky is a security software provider; Zango provides an
online service for users to stream movies, video games, and
music). This is the first § 230 case we are aware of that
involves direct competitors.
In this appeal, Enigma alleges that Malwarebytes blocked
Enigma's programs for anticompetitive reasons, not because
Enigma’s
programs’ content was objectionable within the meaning
the programs'
of § 230, and that § 230 does not provide immunity for
Malwarebytes’s position is that,
anticompetitive conduct. Malwarebytes's
given the catchall, Malwarebytes has immunity regardless of
any anticompetitive motives.
Malwarebytes’s position, as it appears
We cannot accept Malwarebytes's
CDA’s history and purpose. Congress expressly
contrary to CDA's
“to preserve the vibrant and
provided that the CDA aims "to
competitive free market that presently exists for the Internet
services” and to "remove
“remove
and other interactive computer services"
disincentives for the development and utilization of blocking
technologies.” § 230(b)(2)—(3).
230(b)(2)–(3). Congress said
and filtering technologies."
it gave providers discretion to identify objectionable content
in large part to protect competition, not suppress it. Id. In
other words, Congress wanted to encourage the development

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 19 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

19

of filtration technologies, not to enable software developers
to drive each other out of business.
In the infancy of the internet, the unwillingness of
“otherwise
Congress to spell out the meaning of "otherwise
objectionable” was understandable. The broad grant of
objectionable"
protective control over online content may have been more
readily acceptable in an era before the potential magnitude of
internet communication was fully comprehended. Indeed, the
fears of harmful content at the time led Congress to enact, in
the same statute, an outright ban on the dissemination of
online pornography, a ban which the Supreme Court swiftly
rejected as unconstitutional a year later. See Reno v. ACLU,
521 U.S. at 877-79
877–79 (striking down 47 U.S.C. § 223).
We must today recognize that interpreting the statute to
give providers unbridled discretion to block online content
would, as Judge Fisher warned, enable and potentially
motivate internet-service providers to act for their own, and
not the public, benefit. See 568 F.3d at 1178 (Fisher, J.,
concurring). Immunity for filtering practices aimed at
suppressing competition, rather than protecting internet users,
would lessen user control over what information they receive,
Congress’s stated policy. See § 230(b)(3) (to
contrary to Congress's
maximize user control over what content they view). Indeed,
users selecting a security software provider must trust that the
provider will block material consistent with that user's
user’s
desires. Users would not reasonably anticipate providers
blocking valuable online content in order to stifle
competition. Immunizing anticompetitive blocking would,
therefore, be contrary to another of the statute's
statute’s express
“removing disincentives for the utilization of
policies: "removing
technologies.” Id. § 230(b)(4).
blocking and filtering technologies."

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 20 of 27

20

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

Malwarebytes’s position that § 230
We therefore reject Malwarebytes's
immunity applies regardless of anticompetitive purpose. But
we cannot, as Enigma asks us to do, ignore the breadth of the
“objectionable” by construing it to cover only material
term "objectionable"
that is sexual or violent in nature. Enigma would have us
“otherwise objectionable"
objectionable” as
read the general, catchall phrase "otherwise
limited to the categories of online material described in the
seven specific categories that precede it. See 47 U.S.C.
§ 230(c)(2) (describing material that is "obscene,
“obscene, lewd,
lascivious, filthy, excessively violent, harassing or otherwise
objectionable.”). Enigma argues that its software has no such
objectionable.").
content, and that Malwarebytes therefore cannot claim
immunity for blocking it.
Enigma relies on the principle of ejusdem generis, which
teaches that when a generic term follows specific terms, the
generic term should be construed to reference subjects akin
to those with the specific enumeration. See, e.g., Norfolk &
W. Ry. Co. v. Am. Train Dispatchers Ass
Ass’n,
'n, 499 U.S. 117, 129
(1991). But the specific categories listed in § 230(c)(2) vary
greatly: Material that is lewd or lascivious is not necessarily
similar to material that is violent, or material that is harassing.
If the enumerated categories are not similar, they provide
little or no assistance in interpreting the more general
category. We have previously recognized this concept. See
Reg’l Cty. Sanitation Dist. v. Reilly, 905 F.2d
Sacramento Reg'l
1262, 1270 (9th Cir. 1990) ("Where
(“Where the list of objects that
other’ phrase is dissimilar, ejusdem generis
precedes the ‘or
'or other'
apply”).
does not apply").
We think that the catchall was more likely intended to
encapsulate forms of unwanted online content that Congress
could not identify in the 1990s. But even if ejusdem generis
did apply, it would not support Enigma’s
Enigma's narrow

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 21 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

21

“otherwise objectionable."
objectionable.” Congress wanted
interpretation of "otherwise
internet users tools to avoid not only violent or
to give interne
sexually explicit materials, but also harassing materials.
Spam, malware and adware could fairly be placed close
“otherwise
enough to harassing materials to at least be called "otherwise
objectionable” while still being faithful to the principle of
objectionable"
ejusdem generis. Several district courts have, for example,
“objectionable.”
regarded unsolicited marketing emails as "objectionable."
See, e.g., Holomaxx, 783 F. Supp. 2d at 1104; e360Insight,
LLC v. Comcast Corp., 546 F. Supp. 2d 605, 608–610
608-610 (N.D.
Ill. 2008); see also Smith v. Trusted Universal Standards In
Elec. Transactions, Inc., No. CIV09-4567-RBK-KMW, 2010
WL 1799456, at *6 (D.N.J. May 4, 2010). But we do not, in
this appeal, determine the precise relationship between the
“otherwise objectionable”
term "otherwise
objectionable" and the seven categories that
provider’s basis for
precede it. We conclude only that if a provider's
objecting to and seeking to block materials is because those
materials benefit a competitor, the objection would not fall
within any category listed in the statute and the immunity
would not apply.
Malwarebytes’s fallback position is that, even if it would
Malwarebytes's
lack immunity for anticompetitive blocking, Malwarebytes
“objectionable” for legitimate
has found Enigma’s
Enigma's programs "objectionable"
programs’ content. Malwarebytes
reasons based on the programs'
asserts that Enigma’s
Enigma's programs, SpyHunter and RegHunter,
“deceptive tactics"
tactics” to scare users into believing that they
use "deceptive
have to download Enigma’s
Enigma's programs to prevent their
computers from being infected. Enigma alleges, however,
“pose no security threat"
threat” and that
that its programs "pose
Malwarebytes’s
justification
for
blocking
these
“legitimate”
Malwarebytes's
"legitimate"
and "highly
“highly regarded"
regarded” programs was a guise for
anticompetitive animus.

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 22 of 27

22

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

The district court interpreted our holding in Zango to
foreclose this debate entirely, implicitly reasoning that if
Malwarebytes has sole discretion to select what programs are
“objectionable,” the court need not evaluate the reasons for
"objectionable,"
the designation. Because we hold that § 230 does not provide
competitor’s program for
immunity for blocking a competitor's
anticompetitive reasons, and because Enigma has specifically
alleged that the blocking here was anticompetitive, Enigma’s
Enigma's
claims survive the motion to dismiss. We therefore reverse
Enigma's state-law claims and we remand for
the dismissal of Enigma’s
further proceedings.
II. The Federal Claim and the CDA's
CDA’s Intellectual
Property Exception
Enigma’s
Enigma's fourth claim is a claim for false advertising
under the Lanham Act, a statute dealing with a form of
intellectual property, i.e. trademarks. Enigma alleges that
Enigma’s programs
Malwarebytes publicly mischaracterized Enigma's
SpyHunter and RegHunter as potentially unwanted or PUPs,
and it did so in order to interfere with Enigma’s
Enigma's customer
base and divert those customers to Malwarebytes.
Section 230(e)(2) of the CDA contains an exception to
immunity for intellectual property claims. See 47 U.S.C.
§ 230(e)(2). This exception, known as the intellectual
“limit
property carve out, states that § 230 immunity shall not "limit
property.” Id. In
or expand any law pertaining to intellectual property."
light ofthat
of that exception, Enigma contends that immunity would
Enigma's Lanham Act claim, even if immunity is
not bar Enigma’s
available to Malwarebytes on the state law claims. Although
Enigma's claim does not itself involve an intellectual
Enigma’s
property right, Enigma characterizes its federal false
“pertaining to intellectual property"
property”
advertising claim as one "pertaining

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 23 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

23

within the meaning of § 230(e)(2) because the Lanham Act
deals with intellectual property. The district court rejected
this argument, and rightly so.
This is because even though the Lanham Act is known as
the federal trademark statute, not all claims brought under the
statute involve trademarks. The Act contains two parts, one
governing trademark infringement and another governing
false designations of origin, false descriptions, and dilution.
Compare 15 U
U.S.C.
.S.C. § 1114 (trademark infringement) with id.
§ 1125 (the rest). The latter, § 1125, creates two bases of
liability, false association and false advertising. Compare
§ 1125(a)(1)(A) (false association) with § 1125(a)(1)(B)
“much of the Lanham Act
(false advertising). Thus, although "much
addresses the registration, use, and infringement of
trademarks and related marks, . . . § 1125(a) is one of the few
protection.” Dastar
provisions that goes beyond trademark protection."
Corp. v. Twentieth Cent. Fox Film Corp., 539 U.S. 23, 28-29
28–29
(2003).
In this appeal, we must decide whether the exception to
immunity contained in § 230(e)(2) applies to false advertising
claims brought under the Lanham Act. Our court has not
addressed the issue, although we have considered the
claims. See Perfect
exception as it would apply to state law claims
10 v. CCBill, LLC, 488 F.3d 1102, 1118-19
1118–19 (9th Cir. 2009)
(concluding that the intellectual property exception in
§ 230(e)(2) was not intended to cover intellectual property
claims brought under state law); see also Gen. Steel Domestic
Sales, L.L.C. v. Chumley, 840 F.3d 1178, 1182 (10th Cir.
2016) (declining to analyze the intellectual property
“§ 230 does not contain
exception; explaining that because "§
the grant of immunity from suit contended for, it is

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 24 of 27

24

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

unnecessary to discuss its applicability to the Lanham Act
claims").
false advertising claims”).
We have observed before that because Congress did not
“intellectual property law,"
law,” it should be
define the term "intellectual
CDA’s express policy of
construed narrowly to advance the CDA's
providing broad immunity.
immunity See Perfect 10, 488 F.3d at 1119.
One of these express policy reasons for providing immunity
“to preserve the
was, as Congress stated in § 230(b)(2), "to
vibrant and competitive free market that presently exists for
the Internet and other interactive computer services,
regulation.” 47 U.S.C.
unfettered by Federal or State regulation."
§ 230(b)(2). The intellectual property exception is a
limitation on immunity, and the CDA's
CDA’s stated congressional
purpose counsels against an expansive interpretation of the
immunity. If the
exception that would diminish the scope of immunity
intellectual property law exception were to encompass any
claim raised under the Lanham Act—including false
advertising claims that do not directly involve intellectual
property rights—it would create a potential for new liability
“preserve” the vibrant culture of
that would upset, rather than "preserve"
innovation on the internet that Congress envisioned. Id.
We therefore hold that the intellectual property exception
contained in § 230(e)(2) encompasses claims pertaining to an
established intellectual property right under federal law, like
those inherent in a patent, copyright, or trademark. The
exception does not apply to false advertising claims brought
under § 1125(a) of the Lanham Act, unless the claim itself
involves intellectual property.
Here, Enigma's
Enigma’s Lanham Act claim derives from the
statute’s false advertising provision. Enigma alleges that
statute's
Malwarebytes mischaracterized Enigma’s
Enigma's most popular

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 25 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

25

software programs in order to divert Enigma’s
Enigma's customers to
Malwarebytes. These allegations do not relate to or involve
trademark rights or any other intellectual property rights.
Thus, Enigma’s
Enigma's false advertising claim is not a claim
law" within the meaning
“pertaining to intellectual property law”
"pertaining
of § 230(e)(2). The district court correctly concluded that the
intellectual property exception to immunity does not
Enigma's Lanham Act claim.
encompass Enigma’s
The district court went on to hold, however, as it did with
the state law claims, that Malwarebytes is nevertheless
immune from liability under our decision in Zango. As we
have explained with respect to the state law claims, Zango did
not define an unlimited scope of immunity under § 230, and
immunity under that section does not extend to
anticompetitive conduct. Because the federal claim, like the
state claims, is based on allegations of such conduct, the
federal claim survives dismissal. We therefore reverse the
court’s judgment in favor of Malwarebytes and
district court's
remand for further proceedings on this claim as well.
CONCLUSION
The judgment of the district court is reversed and the case
is remanded for further proceedings consistent with this
opinion.
REVERSED and REMANDED.

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 26 of 27

26

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

RAWLINSON, Circuit Judge, dissenting:
In his concurring opinion in Zango, Inc. v. Kaspersky
1179–80 (9th Cir. 2009), Judge
Lab, Inc., 568 F.3d 1169, 1179-80
“until Congress clarifies the statute
Fisher acknowledged that "until
or a future litigant makes the case for a possible limitation,”
limitation,"
“broadly worded"
worded” Communications Decency Act (the
the "broadly
Act) afforded immunity to a distributor of Internet security
software. Congress has not further clarified the statute and
Enigma Software has not persuasively made a case for
limitation of the statute beyond its provisions.
The majority opinion seeks to limit the statute based on
the fact that the parties are competitors. See Majority
Opinion, p. 6. However, nothing in the statutory provisions
or our majority opinion in Zango supports such a distinction.
“broad language"
language” of the Act specifically
Rather the "broad
“any action voluntarily taken [by a provider] to
encompasses "any
restrict access to . . . material that the provider . . . considers
objectionable.” 47 U.S.C. § 230(c)(2)(A)
to be . . . otherwise objectionable."
(emphasis added). Under the language of the Act, so long as
the provider's
provider’s action is taken to remove "otherwise
“otherwise
objectionable” material, the restriction of access is
objectionable"
majority’s real complaint is not that
immunized. See id. The majority's
the district court construed the statute too broadly, but that the
statute is written too broadly. However, that defect, if it is a
defect, is one beyond our authority to correct. See Baker
Botts LLP v. ASARCO LLC, 135 S. Ct. 2158, 2169 (2015).
In particular, the majority holds that the criteria for
blocking online material may not be based on the identity of
the entity that produced it. See Majority Opinion, p. 11.
Unfortunately, however, that conclusion cannot be squared
with the broad language of the Act. Under the language of

Case: 17-17351, 12/31/2019, ID: 11547445, DktEntry: 72, Page 27 of 27

E
NIGMA S
OFTWARE V.
V. MALWAREBYTES
MALWAREBYTES
ENIGMA
SOFTWARE

27

if the blocked content is "otherwise
“otherwise objectionable"
objectionable”
the statute, ifthe
immunity. Zango, 568 F.3d
to the provider, the Act bestows immunity
(“[T]he statute plainly immunizes from suit a
at 1173 ("[T]he
provider of interactive computer services that makes available
software that filters or screens material that the user or the
objectionable.”) (emphasis in the original);
provider deems objectionable.")
1174 ("According
(“According protection to providers of programs that
filter adware and malware is also consistent with the
Congressional goals for immunity articulated in [47 U.S.C.]
itself.”). Although the parties were not direct
§ 230 itself.").
competitors, the plaintiff in Zango asserted similar anti1171–72. The majority's
majority’s
competition effects. See id. at 1171-72.
policy arguments are in conflict with our recognition in
Zango that the broad language of the Act is consistent with
“the Congressional goals for immunity"
immunity” as expressed in the
"the
language of the statute. Id. at 1174. As the district court
“must presume that a legislature says in
cogently noted, we "must
a statute what it means and means in a statute what it says
there.” Connecticut Nat'l
Nat’l Bank v. Germain, 503 U.S. 249,
there."
253–54 (1992) (citations omitted).
253-54
I respectfully dissent.

